APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-35565
D.C. No. 2:18-cv-00928-MJP
Yolany Padilla; Ibis Guzman; Blanca Orantes;
Baltazar Vasquez, plaintiffs-appellees
v.
Immigration and Customs Enforcement;
U.S. Department of Homeland Security; U.S.
Customs and Border Protection; United States
Citizenship and Immigration Services; Matthew
Albence, Acting Director of ICE; Chad Wolf,
Acting Secretary of DHS; Mark Morgan, Acting
Commissioner of CBP; Ken Cuccinelli,
Senior Official Performing the Duties of the
Director of USCIS; Marc J. Moore, Seattle
Field Office Director, ICE; Executive Office
for Immigration Review; William P. Barr,
Attorney General, United States Attorney
General; Lowell Clark, Warden of the
Northwest Detention Center in Tacoma,
Washington; Charles Ingram, Warden of
the Federal Detention Center in SeaTac,
Washington; David Shinn, Warden; James
Janecka, Warden of the Adelanto Detention
Facility, defendants-appellants
AND

U.S. Department of Health & Human Services,
FKA Department of Social Services; Office of
Refugee Resettlement; Alex M. Azar II,
Secretary of HHS; Scott Lloyd, Director of
ORR; Matthew Albence, Acting Deputy Director
(la)

2a
OF
ICE; John P. Sanders, Acting Commissioner of
CBP; Elizabeth Godfrey, Acting Director of
Seattle Field Office, ICE, defendants
Argued and Submitted: Oct. 22, 2019
San Francisco, California
Filed: Mar. 27, 2020
Appeal from the United States District Court
for the Western District of Washington
Marsha J. Pechman, District Judge, Presiding
OPINION
Sidney R. Thomas, Chief Judge, and
Before:
Michael Daly Hawkins and Bridget S. Bade, Cir­
cuit Judges.
Opinion by Chief Judge THOMAS; Dissent by Judge
Bade
Thomas, Chief Judge:
In this interlocutory appeal, we consider whether the
district court abused its discretion in granting a prelim­
inary injunction ordering the United States to provide
bond hearings to a class of noncitizens who were de­
tained after entering the United States and were found
by an asylum officer to have a credible fear of persecu­
tion. We conclude that it did not, and we affirm the or­
der of the district court, in part, and direct the district
court to reconsider some of the technical aspects of its
order.

3a
I
Plaintiffs are a class of noncitizens detained pursuant
to 8 U.S.C. § 1225(b). Section 1225(b) provides for “ex­
pedited removal” of “arriving” noncitizens at ports-ofentry and inadmissible noncitizens apprehended within
the United States who cannot prove that they have been
in the United States for more than two years. See Des­
ignating Aliens for Expedited Removal, 84 Fed. Reg.
35,409-01, 35,413-14 (July 23, 2019);1 see also 8 U.S.C.
§ 1225(b)(l)(A)(iii)(II). Plaintiffs are in this latter cat­
egory.
DHS removes noncitizens eligible for expedited re­
moval “without further hearing or review,” subject to only
one exception. 8 U.S.C. § 1225(b)(l)(A)(i). If the non­
citizen indicates an intent to apply for asylum or a fear
of persecution, DHS must refer the noncitizen for an in­
terview with an asylum officer. Id. § 1225(b)(l)(A)(ii);
8 C.F.R. § 208.30. If the asylum officer determines
that the noncitizen’s fear of persecution is credible, the
noncitizen is referred to full removal proceedings, in which
the noncitizen may apply for asylum or other forms of
relief from removal. See 8 U.S.C. § 1225(b)(l)(B)(ii);
8 C.F.R. §§ 208.30(f), 1003.42(f). Subject to review, if the
1 At the time the district court certified the class and the injunc­
tion was issued below, the government applied expedited removal to
inadmissable noncitizens arriving at a port-of-entry and any inad­
missible noncitizen apprehended within 100 miles of the border and
present in the country for fewer than 14 days. See Designating Al­
iens for Expedited Removal, 69 Fed. Reg. 48877-01, 48879-80 (Aug.
11,2004). In July 2019, however, the Department of Homeland Se­
curity (“DHS”) announced that it would expand expedited removal
to the statutory limit. See Designating Aliens for Expedited Re­
moval, 84 Fed. Reg. 35,409-01, 35,413-14 (July 23, 2019); see also
8 U.S.C. § 1225(b)(l)(A)(iii)(II).

4a
asylum officer finds no credible fear of persecution, the
noncitizen will be removed. 8 U.S.C. § 1225(b)(l)(B)(iii).
A supervisor reviews the asylum officer’s credible fear de­
termination, 8 C.F.R. §§ 208.30(e)(7), 235.3(b)(2), (b)(7), and
a noncitizen may also request de novo review by an immi­
gration judge, 8 U.S.C. § 1225(b)(l)(B)(iii)(III); 8 C.F.R.
§ 1003.42.
If the asylum officer determines at the time of the
credible fear interview that the noncitizen has a credible
fear of persecution, the noncitizen must “be detained for
further consideration of the application for asylum.”
8 U.S.C. § 1225(b)(l)(B)(ii). If the asylum officer de­
termines that the noncitizen does not have a credible
fear of persecution, the statute requires that the noncit­
izen be detained during the review process “pending a
final determination of credible fear of persecution and,
if found not to have such a fear, until removed.” Id.
§ 1225(b)(l)(B)(iii)(IV).
Until July 2019, noncitizens like plaintiffs, who were
apprehended within the United States and initially sub­
ject to expedited removal, but who established credible
fear and were transferred to full removal proceedings,
were considered to be entitled to bond hearings before
an immigration judge, as noncitizens in full removal pro­
ceedings usually are. See Matter of X-K-, 23 I. & N.
Dec. 731,731 (BIA 2005).
In June 2018, Yolany Padilla, Ibis Guzman, and Blanca
Orantes filed a class action complaint challenging the
government’s alleged policy and practice of separating
families seeking asylum and delaying credible fear in­
terviews and bond hearings for detained asylum seek­
ers. Plaintiffs moved for class certification and for a

5a
preliminary injunction requiring “timely bond hearings
that comport with due process.”
The district court first certified a nationwide Bond
Hearing Class consisting of:
All detained asylum seekers who entered the United
States without inspection, were initially subject to ex­
pedited removal proceedings under 8 U.S.C. § 1225(b),
were determined to have a credible fear of persecu­
tion, but are not provided a bond hearing with a ver­
batim transcript or recording of the hearing within
seven days of requesting a bond hearing.
Padilla v. U.S. Immigr. & Customs Enf’t, No. C18-928
MJP, 2019 WL 1056466, at *1 (W.D. Wash. Mar. 6,
2019).2
The district court also granted the motion for a pre­
liminary injunction, implementing certain procedural
requirements for class members’ bond hearings. Spe­
cifically, the preliminary injunction required the Execu­
tive Office for Immigration Review (“EOIR”) to conduct
bond hearings within seven days of a class member’s re­
quest and release any member whose detention without
a hearing exceeds that limit. Padilla v. U.S. Immigr.
& Customs Enft, 379 F. Supp. 3d 1170, 1172 (W.D.
Wash. 2019). The injunction also provided that in
those hearings, the burden of proof must be placed on
DHS to demonstrate why the class member should not
be released on bond, parole, or other conditions. Id.
2 The parties later stipulated that “the Bond Hearing Class in­
cludes individuals who otherwise satisfy the requirements for class
membership but were determined to have a credible fear of torture,
rather than only individuals determined to have a credible fear of
persecution.”

6a
It required the government to record the bond hearings
and produce the recordings or verbatim transcripts upon
appeal. Finally, the injunction required the government
to produce a written decision with particularized find­
ings at the conclusion of each bond hearing. Id.
Shortly after this order, the Attorney General (“AG”)
overruled Matter ofX-K-, which established that noncit­
izens similarly situated to the members of the bond hear­
ing class are entitled to bond hearings, as “wrongly de­
cided.” Matter of M-S-, 27 I. & N. Dec. 509, 510 (A.G.
2019). The AG interpreted 8 U.S.C. § 1225(b)(l)(B)(ii) to
require mandatory detention without bond hearings for
asylum seekers who were initially subject to expedited
removal but later transferred to full removal proceed­
ings after establishing a credible fear. See Matter of
M-S-, 27 I. & N. Dec. at 515-17. Under Matter ofM-S-,
the only possibility for release available to noncitizens
in this category is a discretionary grant of parole by
DHS for “urgent humanitarian reasons or significant
public benefit” pursuant to 8 U.S.C. § 1182(d)(5). Id.
at 516-17. The AG delayed implementation of Matter
of MS- for 90 days in light of its “significant impact
. . . on detention operations.” See id. at 519 n.8.
Plaintiffs then filed a third amended complaint chal­
lenging Matter of MS- on due process grounds and
moved to modify the injunction.3 Defendants moved to
vacate the injunction.

3 Plaintiffs also challenged, inter alia, the AG’s interpretation of
8 U.S.C. § 1225(b)(l)(B)(ii), but did not seek preliminary relief on
that basis.

7a
The district court modified the previously issued pre­
liminary injunction, dividing it into two parts “to facili­
tate appellate review.” Padilla v. U.S. Immigr. & Cus­
toms Enf’t, 387 F. Supp. 3d 1219, 1222 (W.D. Wash.
2019). In Part A, the court reaffirmed its previously
entered injunctive relief. Id. In Part B, the court es­
sentially maintained the status quo before Matter of
M-S
Id. The court:
[m]odif[ied] the injunction to find that the statutory
prohibition at [§ 1225(b)(l)(B)(ii)] against releasing
on bond persons found to have a credible fear and
awaiting a determination of their asylum application
violates the U.S. Constitution; the Bond Hearing
Class is constitutionally entitled to a bond hearing
before a neutral decisionmaker (under the conditions
enumerated [in Part A]) pending resolution of their
asylum applications.
Id.
The government timely appealed both orders, moved
for an administrative stay of the injunction, and a stay
pending appeal. A motions panel of this court denied
the government’s request to stay Part B of the injunc­
tion, in which the district court held that class members
are constitutionally entitled to bond hearings, but granted
the request to stay Part A, which imposed procedural
requirements on those bond hearings.4

4 Plaintiffs have moved to stay further appellate proceedings pend­
ing the Supreme Court’s decision in Thuraissigiam v. DHS, 917 F.3d
1097,1100 (9th Cir. 2019), cert, granted sub nom. DHS v. Thurais­
sigiam, No. 19-161,2019 WL 5281289 (U.S. Oct. 18,2019). The mo­
tion is DENIED.

8a
II
We have jurisdiction of this interlocutory appeal un­
der 28 U.S.C. § 1292(a)(1). “We review the district
court’s decision to grant or deny a preliminary injunc­
tion for abuse of discretion.” Sw. Voter Registration
Educ. Project v. Shelley, 344 F.3d 914, 918 (9th Cir.
2003) (en banc) (per curiam) (citation omitted). “Our
review is limited and deferential.” Id. The district
court abuses its discretion when it makes an error of law.
Id. “We review the district court’s legal conclusions
de novo, [and] the factual findings underlying its deci­
sion for clear error.” K.W. ex rel. D.W. v. Armstrong,
789 F.3d 962, 969 (9th Cir. 2015) (citation omitted).
“We do not ‘determine the ultimate merits,’ but rather
‘determine only whether the district court correctly dis­
tilled the applicable rules of law and exercised permissi­
ble discretion in applying those rules to the facts at hand.’ ”
Saraviav. Sessions, 905 F.3d 1137,1141-42 (9th Cir. 2018)
(quoting Fyock v. Sunnyvale, 779 F.3d 991, 995 (9th Cir.
2015)).
We also review the scope of the preliminary injunc­
tion, such as its nationwide effect, for abuse of discre­
tion. California v. Azar, 911 F.3d 558, 568 (9th Cir.
2018), cert, denied sub nom. Little Sisters of the Poor
Jeanne Jugan Residence v. California, 139 S. Ct. 2716
(2019). “We review de novo the existence of the district
court’s jurisdiction.” Rodriguez v. Cty. of Los Angeles,
891 F.3d 776, 790 (9th Cir. 2018).
Ill
“A plaintiff seeking a preliminary injunction must es­
tablish that he is likely to succeed on the merits, that he

9a
is likely to suffer irreparable harm in the absence of pre­
liminary relief, that the balance of equities tips in his fa­
vor, and that an injunction is in the public interest.”
Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7, 20
(2008). Where the government is a party to a case in
which a preliminary injunction is sought, the balance of
the equities and public interest factors merge. Drakes
Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092 (9th Cir.
2014). After consideration of the arguments presented
by both parties and several amici curiae and thorough
review of the record, we conclude that the district court
did not abuse its discretion in issuing Part B of the pre­
liminary injunction and ordering that plaintiffs receive
bond hearings; however, because the record is insuffi­
cient to support Part A of the preliminary injunction, we
remand for further findings and reconsideration with
respect to the particular process due to plaintiffs. On
remand, the district court must further develop the fac­
tual record and revisit the scope of injunctive relief.
A
1
The Due Process Clause of the Fifth Amendment for­
bids the government from “depriv[ing]” any “person
. . . of ... liberty . . . without due process of
law.” The Supreme Court has made clear that all per­
sons in the United States—regardless of their citizen­
ship status, means or legality of entry, or length of stay—
are entitled to the protections of the Due Process Clause.
See, e.g., Zadvydas v. Davis, 533 U.S. 678, 693 (2001)
(although “certain constitutional protections . . . are
unavailable to aliens outside of our geographic borders
. . . once an alien enters the country, the legal circum­
stance changes, for the Due Process Clause applies to

10a
all ‘persons’ within the United States, including aliens,
whether their presence here is lawful, unlawful, tempo­
rary, or permanent”); see also United States v. RayaVaca, 771 F.3d 1195, 1202-03 (9th Cir. 2014) (observing
that the “Supreme Court has categorically declared that
once an individual has entered the United States, he is
entitled to the protection of the Due Process Clause”
and that “[e]ven an alien who has run some fifty yards
into the United States has entered the country”); Kim
Ho Ma v. Ashcroft, 257 F.3d 1095, 1108 (9th Cir. 2001)
(“[0]nce an alien has ‘entered’ U.S. territory, legally or
illegally, he or she has constitutional rights, including
Fifth Amendment rights.”).
“Procedural due process imposes constraints on gov­
ernmental decisions which deprive individuals of ‘lib­
erty’ or ‘property’ interests within the meaning of the
Due Process Clause of the Fifth or Fourteenth Amend­
ment.” Mathews v. Eldridge, 424 U.S. 319, 332 (1976).
“Freedom from imprisonment—from government cus­
tody, detention, or other forms of physical restraint—
lies at the heart of the liberty that Clause protects.”
Zadvydas, 533 U.S. at 690. Under the Due Process
Clause, a person must be afforded adequate notice and
hearing before being deprived of liberty. See Mathews,
424 U.S. at 333. “In the context of immigration deten­
tion, it is well-settled that ‘due process requires ade­
quate procedural protections to ensure that the govern­
ment’s asserted justification for physical confinement
outweighs the individual’s constitutionally protected in­
terest in avoiding physical restraint.’” Hernandez v.
Sessions, 872 F.3d 976, 990 (9th Cir. 2017) (quoting
Singh v. Holder, 638 F.3d 1196,1203 (9th Cir. 2011)).

11a
The Supreme Court has held repeatedly that nonpunitive detention violates the Constitution unless it is
strictly limited, which typically means that the detention
must be accompanied by a prompt individualized hear­
ing before a neutral decisionmaker to ensure that the
imprisonment serves the government’s legitimate goals.
See, e.g., United States v. Salerno, 481 U.S. 739, 750-51
(1987) (pretrial detention of arrestees constitutional
where statute provides for “extensive safeguards,” in­
cluding a “full-blown adversary hearing,” in which the
government must “provide[] by clear and convincing ev­
idence that an arrestee presents an identified and artic­
ulable threat to an individual or the community”); Foucha
v. Louisiana, 504 U.S. 71, 79 (1992) (individual entitled
to “constitutionally adequate procedures to establish
the grounds for his confinement”); Kansas v. Hendricks,
521 U.S. 346, 360, 364 (1997) (civil commitment statute
that provided for confinement of “only a narrow class of
particularly dangerous individuals, and then only after
meeting the strictest procedural standards,” did not vi­
olate due process). Indeed, the Supreme Court has re­
quired individualized hearings for far lesser interests.
See Zadvydas, 533 U.S. at 692 (criticizing administrative
custody reviews and noting “[t]he Constitution demands
greater procedural protection even for property”); Gold­
berg v. Kelly, 397 U.S. 254, 268 (1970).
Immigration detention, like all non-punitive deten­
tion, violates the Due Process Clause unless “a special
justification ... outweighs the ‘individual’s consti­
tutionally protected interest in avoiding physical re­
straint.’” Zadvydas, 533 U.S. at 690 (quoting Kansas
v. Hendricks, 521 U.S. at 356). Although “[t]he govern­
ment has legitimate interests in protecting the public
and in ensuring that non-citizens in removal proceedings

12a
appear for hearings, any detention incidental to removal
must ‘bear[ ] [a] reasonable relation to [its] purpose. > »
Hernandez, 872 F.3d at 990 (quoting Zadvydas, 533 U.S.
at 690).
“[G]iven the substantial liberty interests at stake,”
Singh, 638 F.3d at 1200, courts have repeatedly affirmed
the importance of providing detained noncitizens indi­
vidualized hearings before neutral decisionmakers. See
Hernandez, 872 F.3d at 990 (requiring “adequate proce­
dural protections to ensure that the government’s as­
serted justification for physical confinement outweighs
the individual’s constitutionally protected interest in
avoiding physical restraint” (quoting Singh, 638 F.3d at
1203)); Casas-Castrillon v. DHS, 535 F.3d 942, 950 (9th
Cir. 2008) (individuals subjected to prolonged detention
pending judicial review of their removal orders are enti­
tled to a bond hearing and an “individualized determina­
tion as to the necessity of [their] detention”); see also
Jennings v. Rodriguez, 138 S. Ct. 830, 862, 869 (2018)
(Breyer, J., dissenting) (reviewing Supreme Court
caselaw, which “almost always has suggested” that bail
proceedings for noncitizens are necessary and that
“[t]he Due Process Clause foresees bail eligibility as
part of ‘due process’”); Salerno, 481 U.S. at 746 (“When
government action depriving a person of life, liberty, or
property survives substantive due process scrutiny, it
must still be implemented in a fair manner.”).
Thus, we conclude that the district court did not
abuse its discretion in applying Mathews and concluding
that the plaintiffs were likely to succeed on their claim
that they are constitutionally entitled to individualized
bond hearings before a neutral decisionmaker.

13a
2

The Supreme Court’s decisions in Zadvydas and
Demote v. Kim, 538 U.S. 510 (2003), are not to the con­
trary. In Zadvydas, the two petitioners were in a
unique situation: they had been adjudicated remova­
ble and were being detained ostensibly to enable their
deportation; however, their detention lasted longer than
the usual 90-day removal period because no country
would accept them. Zadvydas, 533 U.S. at 683-87. The
Court avoided the constitutional question presented by
potentially indefinite detention by construing the stat­
ute, under which detention was mandatory for the 90day removal period and then discretionary, as limiting
detention to a period “reasonably necessary” to effectu­
ate removal. See id. at 689. In other words, the Court
construed the statute in such a way as to ensure that de­
tention pursuant to it was reasonably limited to its nar­
row purpose. See id.
In Demote, the Supreme Court held constitutional
the detention of a noncitizen, who had conceded that he
was deportable, pursuant to a statute that imposed de­
tention without bond on a subset of noncitizens deport­
able for having committed enumerated crimes. See 538
U.S. at 526-28,531; see also 8 U.S.C. § 1226(c). The Court
held that this “narrow” detention policy “during the lim­
ited period” necessary to arrange for removal was rea­
sonably related to the government’s purpose of effectu­
ating removal and protecting public safety for reasons
that do not apply here. Demote, 538 U.S. at 526-28; see
also Jennings, 138 S. Ct. at 869 (Breyer, J., dissenting)
(describing Demote as “a deviation from the history and
tradition of bail and alien detention”). In particular,

14a
the Court in Demore placed great weight on congres­
sional findings that the particular individuals subject to
this detention policy presented a heightened risk of
flight and danger to the community. Demore, 538 U.S.
at 518-20. The Court also emphasized that the periods
of detention at issue were typically very short—an aver­
age of 47 days and a median of 30 days in approximately
85 percent of cases, and an average of four months and
a slightly shorter median time in the remaining 15 per­
cent of cases. See id. at 529-30.® Further, the Court ob­
served, these statistics did not include the “many” cases
where a noncitizen was never subject to mandatory de­
tention under the statute because his or her removal
proceedings were completed while he or she served time
for the underlying conviction. Id. at 529.
Here, in contrast, the government presented no evi­
dence that Congress considered plaintiffs to present a
particular risk of flight or danger—indeed, individuals
in the same position as class members have been receiv­
ing bond hearings under Matter ofX-K- for years as well
as for many years before Matter ofX-K- was decided.
See 23 I. & N. Dec. at 731. Moreover, every plaintiff
here will necessarily be subject to mandatory detention,
and the duration of that detention is not similarly “lim­
ited.” See Demore, 538 U.S. at 531. Indeed, the rec­
ord here suggests that, based on statistics from the
years 2010 through early 2019, plaintiffs may expect to
be detained for anywhere from six months to over-ayear while their applications for asylum or protection
5 We acknowledge, however, that the government recently in­
formed the Supreme Court that, with respect to duration of deten­
tion, “the statistics it gave to the Court in Demore were wrong.”
Jennings, 138 S. Ct. at 869 (Breyer, J., dissenting).

15a
are fully adjudicated. This is far longer than the peri­
ods at issue in Demote or Zadvydas.
3
The government argues that such prolonged deten­
tion without a bond hearing is nonetheless constitutional
because the government may release certain noncitizens
on parole pursuant to 8 U.S.C. § 1182(d)(5)(A). See Mat­
ter of M-S-, 27 I. & N. Dec. at 519. By statute, however,
DHS may parole noncitizens “only on a case-by-case ba­
sis for urgent humanitarian reasons or significant public
benefit.” 8 U.S.C. § 1182(d)(5)(A); 8 C.F.R. § 212.5 (pa­
role is “generally [] justified only on a case-by-case basis
for ‘urgent humanitarian reasons’ or ‘significant public
benefit,’ provided the aliens present neither a security risk
nor a risk of absconding”). Moreover, parole decisions
are solely in the discretion of the Secretary of DHS and
are not judicially reviewable, 8 U.S.C. § 1252(a)(2)(B)(ii),6
although individuals may seek a reconsideration based
on changed circumstances, 8 C.F.R. § 212.5. The “term
of parole expires ‘when the purposes of such parole
. . . have been served.’” Matter of M-S-, 27 I. & N.
Dec. at 516 (noting limited circumstances under which
parole may be granted by statute (quoting 8 U.S.C.
§ 1182(d)(5)(A))). By its terms, therefore, the parole
process does not test the necessity of detention; it con­
tains no mechanisms for ensuring that a noncitizen will
be released from detention if his or her detention does
not “bear[] [a] reasonable relation,” Zadvydas, 533 U.S.
at 690, to the government’s “legitimate interests in pro­
tecting the public [or] in ensuring that non-citizens in
6 These sections refer to the AG, but those functions have been
transferred to the Secretary of DHS. See 6 U.S.C. §§ 251, 552(d);
Clark v. Suarez Martinez, 543 U.S. 371,374 n.l (2005).

16a
removal proceedings appear for hearings,” Hernandez,
872 F.3d at 990.
The government urges us to consider, in the first in­
stance, interim parole guidance issued in the wake of the
preliminary injunction; however, this guidance is con­
sistent with the statute and regulations and provides no
additional procedural protections. To be considered
for parole under the interim guidance, a noncitizen must
first “satisfy” an officer that he or she is not a security
or flight risk, at which point the officer may order re­
lease on parole for “urgent humanitarian reasons” or if
detention is not in the public interest. Detention “may
not be in the public interest . . . where, in light of
available detention resources, detention of the subject
alien would limit the ability of ICE to detain another al­
ien whose release may pose a greater risk of flight or
danger to the community.” Under this guidance, ICE
officers make parole determinations by checking one of
five boxes on a form that requires no factual findings, no
specific explanation, and no evidence of deliberation.
Indeed, one of the checkboxes corresponds to five possi­
ble reasons for denying parole, without space to indicate
which applies in a particular case.
In short, parole review is nothing like the “full-blown
adversary hearing” that the Supreme Court has found
adequate to justify civil confinement, see, e.g., Salerno,
481 U.S. at 750-51, and it is “not sufficient to overcome
the constitutional concerns raised by prolonged manda­
tory detention,” Rodriguez v. Robbins, 715 F.3d 1127,
1144 (9th Cir. 2013); see also Zadvydas, 533 U.S. at 692
(suggesting that “the Constitution may well preclude
granting an administrative body the unreviewable au­
thority to make determinations implicating fundamental

17a
rights” (citation and quotation marks omitted)); St. John
v. McElroy, 917 F. Supp. 243, 251 (S.D.N.Y. 1996) (due
process not satisfied by parole review; instead, it re­
quires an “impartial adjudicator” to review detention
since, “[d]ue to political and community pressure, the
INS . . . has every incentive to continue to detain”).
The district court thus did not abuse its discretion in
concluding that the parole process is inadequate to en­
sure that class members are only detained where a valid
governmental purpose outweighs their fundamental lib­
erty interest.
4
The government also insists that plaintiffs’ detention
without bond does not present due process concerns be­
cause each individual alien can file a habeas petition to
challenge the legality of his or her detention. In essence,
the government argues for transferring the work of bond
hearings in the first instance from the immigration
courts to the district courts. Judicial economy would
not be well-served by such a system.
Moreover, the obligation to provide due process ex­
ists regardless of whether a detainee files a habeas pe­
tition. See Sopo v. U.S. Attorney Gen., 825 F.3d 1199,
1217 n.8 (11th Cir. 2016) (“The constitutional principles
at play here, of course, apply to the government’s conduct
—detaining criminal aliens—whether a § 2241 petition
is filed or only potentially forthcoming.”), vacated as
moot, 890 F.3d 952 (11th Cir. 2018). Plaintiffs should
not be required to endure further delays while they con­
test the constitutionality of their detention.
The district court also properly reviewed the evi­
dence before it and underscored the barriers that may

18a
prevent many detained noncitizens in the plaintiff class
from successfully filing and litigating habeas petitions.
The district court had before it declarations testifying to
the fact that noncitizens such as plaintiffs are frequently
pro se, have limited English skills, and lack familiarity
with the legal system, and that immigration detention
centers have inadequate law libraries.
Thus, on this record, we cannot say that the district
court abused its discretion by determining the theoreti­
cal availability of the habeas process did not alone sat­
isfy due process.
5
The government also suggests that non-citizens lack
any rights under the Due Process Clause. As we have
discussed, this position is precluded by Zadvydas and its
progeny. The government relies on inapposite cases
that address the peculiar constitutional status of noncit­
izens apprehended at a port-of-entry, but permitted to
temporarily enter the United States under specific con­
ditions. See, e.g., Shaughnessy v. United States ex rel.
Mezei (“Mezei”), 345 U.S. 206, 208-09, 213-15 (1953)
(noncitizen excluded while still aboard his ship, but then
detained at Ellis Island pending final exclusion proceed­
ings gained no additional procedural rights with respect
to removal by virtue of his “temporary transfer from
ship to shore” pursuant to a statute that “meticulously
specified that such shelter ashore ‘shall not be consid­
ered a landing’”); Leng May Ma v. Barber, 357 U.S. 185
(1958) (noncitizen paroled into the United States while
waiting for a determination of her admissibility was not
“within the United States” “by virtue of her physical
presence as a parolee”); Kaplan v. Tod, 267 U.S. 228
(1925) (noncitizen excluded at Ellis Island but detained

19a
instead of being deported immediately due to suspen­
sion of deportations during World War I “was to be re­
garded as stopped at the boundary line”).
Indeed, these cases, by carving out exceptions not ap­
plicable here, confirm the general rule that once a per­
son is standing on U.S. soil—regardless of the legality
of his or her entry—he or she is entitled to due process.
See, e.g.,Mezei, 345 U.S. at 212 (“[AJliens who have once
passed through our gates, even illegally, may be ex­
pelled only after proceedings conforming to traditional
standards of fairness encompassed in due process of
law.”); Leng May Ma, 357 U.S. at 187 (explaining that
“immigration laws have long made a distinction between
those aliens who have come to our shores seeking admis­
sion . .. and those who are within the United States
after an entry, irrespective of its legality,” and recogniz­
ing, “[i]n the latter instance . . . additional rights
and privileges not extended to those in the former cate­
gory who are merely ‘on the threshold of initial entry’ ”
(quoting Mezei, 345 U.S. at 212)); Kwai Fun Wong v.
United States, 373 F.3d 952, 973 (9th Cir. 2004) (explain­
ing that “the entry fiction is best seen ... as a fairly
narrow doctrine that primarily determines the proce­
dures that the executive branch must follow before turn­
ing an immigrant away” because “[ojtherwise, the doc­
trine would allow any number of abuses to be deemed
constitutionally permissible merely by labelling certain
‘persons’ as non-persons”). We thus conclude that the
district court did not err in holding that plaintiffs are
“persons” protected by the Due Process Clause.
6
For all these reasons, we conclude that the district
court did not abuse its discretion in concluding that the

20a
plaintiffs were likely to prevail on the merits of their due
process claim regarding the availability of bond hear­
ings.
B
Nor did the district court abuse its discretion in con­
cluding that the plaintiffs would suffer irreparable harm
absent the grant of a preliminary injunction. The dis­
trict court found that, in the absence of preliminary re­
lief, plaintiffs would suffer irreparable harm in the form
of “substandard physical conditions, low standards of
medical care, lack of access to attorneys and evidence as
Plaintiffs prepare their cases, separation from their
families, and retraumatization of a population already
found to have legitimate circumstances of victimiza­
tion.” Padilla, 387 F. Supp. 3d at 1231. Contrary to
the government’s unsubstantiated arguments, the rec­
ord supports the district court’s conclusion, and we see
no abuse of discretion.
C
The district court also did not abuse its discretion in
determining that the balance of the equities and public
interest favors plaintiffs with respect to Part B of the
preliminary injunction.
The district court found that the equities on Plain­
tiffs’ side consist of the deprivation of a fundamental
constitutional right and its attendant harms, which
range from physical, emotional, and psychological dam­
ages to unnecessarily prolonged family separation.
Padilla, 387 F. Supp. 3d at 1231; see also Padilla, 379
F. Supp. 3d at 1181. The court also observed that “it is
always in the public interest to prevent the violation of
a party’s constitutional rights.” Padilla, 387 F. Supp.

21a
3d at 1232 (quoting Melendres v. Arpaio, 695 F.3d 990,
1002 (9th Cir. 2012)). On the other side, the district court
weighed defendants’ expressed interests in the admin­
istration of immigration law, in controlling their dock­
ets, and in allocating their limited resources as they see
fit—i.e., “the efficient administration of the immigration
laws.” Padilla, 387 F. Supp. 3d at 1231; see also Pa­
dilla, 379 F. Supp. 3d at 1181. The court concluded
that the balance of hardships “tips decidedly in plain­
tiffs’ favor.” Padilla, 387 F. Supp. 3d at 1232 (quoting
Hernandez, 872 F.3d at 996).
Defendants argue that the district court erred in bal­
ancing the equities because the government suffers ir­
reparable injury anytime a statute is enjoined. This
court has recognized that there is “some authority” for
the idea that “a state may suffer an abstract form of
harm whenever one of its acts is enjoined,” but, “to the
extent that is true ... it is not dispositive of the bal­
ance of harms analysis.” Latta v. Otter, 771 F.3d 496,
500 (9th Cir. 2014) (quoting Indep. Living Ctr. of So.
Cal., Inc. v. Maxwell-Jolly, 572 F.3d 644, 658 (9th Cir.
2009) (alterations omitted), vacated and remanded on
other grounds, 132 S. Ct. 1204 (2012)); see also id. at 500
n.l (noting that “[individual justices, in orders issued
from chambers, have expressed the view that a state suf­
fers irreparable injury when one of its laws is enjoined,
[but] [n]o opinion for the Court adopts this view” (cita­
tions omitted)). The district court thus did not commit
legal error in this respect. See also Robbins, 715 F.3d
at 1145 (finding that balance of equities favored de­
tained noncitizens and noting that the government “can­
not suffer harm from an injunction that merely ends an
unlawful practice”).

22a
In sum, we conclude that the district court did not
abuse its discretion in determining that the balance of
the equities and public interest favors plaintiffs.
D
Because the district court did not abuse its discretion
in applying the Winter factors to determine whether
plaintiffs were entitled to a preliminary injunction re­
quiring that they receive bond hearings, we affirm Part
B of the preliminary injunction.
IV
We now consider the specific procedural require­
ments the district court imposed in its preliminary in­
junction order for the required bond hearings.
As we have noted, “[t]he fundamental requirement of
due process is the opportunity to be heard at a meaning­
ful time and in a meaningful manner.” Mathews, 424
U.S. at 333 (citation and quotation marks omitted). Ac­
cordingly, bond hearings must be held promptly and
must involve adequate procedural protections to ensure
that detention is reasonably related to preventing flight
or danger to the community. See Hernandez, 872 F.3d
at 990. The current record is, however, insufficient to
support the district court’s findings with respect to like­
lihood of success, the harms facing plaintiffs, and the
balance of the equities implicated by Part A of the pre­
liminary injunction—and particularly with respect to
the requirement that the class members receive a bond
hearing within seven days of making such a request or
be released.
The record contains evidence describing wait times
faced by detained noncitizens generally and class mem-

23 a
bers prior to Matter of M-S-, but does not contain suffi­
cient specific evidence justifying a seven-day timeline,
as opposed to a 14-day, 21-day, or some other timeline.
The district court also made insufficient findings re­
garding the extent to which the procedural require­
ments in Part A—and their nationwide scope—may bur­
den the immigration courts. Critically, since the entry
of the preliminary injunction, the number of individuals
currently in expedited removal proceedings—and thus
the number of class members—may have increased dra­
matically. See Designating Aliens for Expedited Re­
moval, 84 Fed. Reg. at 35,413-14 (expanding expedited
removal to the statutory limit). The government sub­
mitted on appeal declarations explaining the operational
difficulties that the procedural requirements in Part A
will cause. Such evidence is properly considered in the
first instance by the district court.
The threat of irreparable harm to plaintiffs, the bal­
ancing of the equities, and the public interest implicated
by Part A of the preliminary injunction present intensely
factual questions. The factual landscape has shifted as
this case has developed, including the time between the
district court’s first preliminary injunction order and
modified preliminary injunction order, and the district
court did not consider these developments when enter­
ing the modified preliminary injunction order. Accord­
ingly, although we affirm Part B of the preliminary in­
junction, we remand this case to the district court for
further factual development on the Winter factors with
respect to Part A of the preliminary injunction. As set
forth below, we also direct the district court on remand
to revisit the injunction’s scope.

24a
V
The defendants argue that, under 8 U.S.C. § 1252(f)(1),
the district court lacked authority to grant injunctive re­
lief in this case. We disagree.
Section 1252(f)(1) provides that “no court (other than
the Supreme Court) shall have jurisdiction or authority
to enjoin or restrain the operation of the provisions of
[8 U.S.C. §§ 1221-1232], other than with respect to the
application of such provisions to an individual alien
against whom proceedings under such part have been
initiated.” All of the individuals in the plaintiff class
here are “individuals] against whom proceedings under
such part have been initiated.” See id.
Although the Supreme Court has analyzed the im­
pact of § 1252(f)(1) on classwide relief in suits filed by
organizations, it has never had an opportunity to con­
sider the meaning of the statute’s exception clause and
its effect on the availability of classwide relief where
every member of a class is “an individual alien against
whom proceedings under such part have been initiated.”
See id The Supreme Court observed in Reno v. AmericanArab Anti-Discrimination Committee (“AADC”) that
§ 1252(f)(1) is “nothing more or less than a limit on in­
junctive relief. It prohibits federal courts from grant­
ing classwide injunctive relief against the operation of
§§ 1221-1231, but specifies that this ban does not extend
to individual cases.” 525 U.S. 471, 481-82 (1999). The
Court made this observation in the course of rejecting
an argument that the subsection provided an affirmative
grant of jurisdiction. See id.
Because AADC was not a class action, “[t]he Court in
AADC did not consider, and had no reason to consider,

25a
the application of § 1252(f)(1) to [] a class” in which
“[ejvery member . . . falls within the provision’s ex­
ception.” Jennings, 138 S. Ct. at 875 (2018) (Breyer,
J., dissenting). In Jennings, the Supreme Court made
clear that the question is unresolved, quoting AADC,
but remanding to this court to consider in the first in­
stance whether classwide injunctive relief is available
under § 1252(f)(1)). See id. at 851.
As we noted in Rodriguez v. Marin, § 1252(f)(1) does
not on its face bar class actions or classwide relief. 909
F.3d 252, 256 (9th Cir. 2018) (remanding in turn to the
district court to consider in the first instance whether
§ 1252(f)(1) precluded the injunctive relief sought
there). We decline the government’s invitation to read
into the text, or in AADC, a broad but silent limitation
on the district court’s powers under Federal Rule of
Civil Procedure 23. “In the absence of a direct expres­
sion by Congress of its intent to depart from the usual
course of trying ‘all suits of a civil nature’ under the
Rules established for that purpose, class relief is appro­
priate in civil actions brought in federal court.” Califano v. Yamasaki, 442 U.S. 682, 700 (1979).
Section 1252(f)(l)’s silence as to class actions is espe­
cially significant because its neighboring subsection,
§ 1252(e)(1)(B), adopted at the same time by the same
Congress, expressly prohibits class actions. See 8 U.S.C.
§ 1252(e)(1)(B) (barring courts from “certify[ing] a class
under Rule 23 ... in any action for which judicial
review is authorized under a subsequent paragraph of
this subsection”); see also Trump v. Hawaii, 138 S. Ct.
2392, 2408 (2018). Congress knows how to speak une­
quivocally when it wants to alter the availability of class
actions in immigration cases. It did not do so here.

26a
See Hayes, 591 F.3d at 1119 (construing § 1252(f)(1) nar­
rowly as not banning classwide declaratory relief in light
of § 1252(e)’s breadth); Am. Immigration Lawyers Ass’n
v. Reno (‘AILA”), 199 F.3d 1352, 1359 (D.C. Cir. 2000)
(noting that § 1252(e) contains a “ban on class actions”
while § 1252(f)(1) contains a different limitation); see
also Barnhart v. Sigmon Coal Co., 534 U.S. 438, 452
(2002) (“[W]hen Congress includes particular language
in one section of a statute but omits it in another section
of the same Act, it is generally presumed that Congress
acts intentionally and purposely in the disparate inclu­
sion or exclusion.” (quotation marks and citation omit­
ted)).
The government contends that our interpretation of
§ 1252(f)(1) as applied to this case renders superfluous
the word “individual” in the phrase “individual alien.”
However, the word “individual” is not superfluous if
Congress intended it to prohibit injunctive relief with re­
spect to organizational plaintiffs. Cf. Califano, 442 U.S.
at 701 (explaining that a statute authorizing a suit by
“any individual” and “contemplating] case-by-case ad­
judication” does not foreclose classwide relief because
“[wjhere the district court has jurisdiction over the
claim of each individual member of the class, [FRCP] 23
provides a procedure by which the court may exercise
that jurisdiction over the various individual claims in a
single proceeding”); Brown v. Plata, 563 U.S. 493, 531
(2011) (provision stating that a remedy shall extend no
further than necessary to remedy the violation of the
rights of a “particular plaintiff or plaintiffs” was not a
limitation on classwide injunctive relief, but instead
meant that the “scope of the order must be determined
with reference to the constitutional violations estab­
lished by the specific plaintiffs before the court”).

27a
The statute’s legislative history supports our read­
ing. See Pac. Coast Fed’n of Fishermen’s Ass’ns v.
Glaser, 937 F.3d 1191, 1196 (9th Cir. 2019) (explaining
that courts “may use canons of construction, legislative
history, and the statute’s overall purpose to illuminate
Congress’s intent”). Congress adopted § 1252(f)(1) af­
ter a period in which organizations and classes of per­
sons, many of whom were not themselves in proceed­
ings, brought preemptive challenges to the enforcement
of certain immigration statutes. See, e.g., Reno v.
Catholic Soc. Servs., Inc., 509 U.S. 43, 47-51 (1993) (ap­
peal from orders invalidating INS regulations in class
actions brought by immigration rights groups); McNary
v. Haitian Refugee Ctr., Inc., 498 U.S. 479, 487-88 (1991)
(appeal from order holding certain INS practices uncon­
stitutional and requiring INS to modify its practices in
action brought by immigrant rights group on behalf of a
class of farmworkers); Haitian Refugee Ctr. v. Smith,
676 F.2d 1023, 1026 (5th Cir. Unit B 1982) (affirming
finding that new asylum procedures violated due pro­
cess in case brought by an organization on behalf of a
class of Haitians who had petitioned for political asy­
lum); see also AILA, 199 F.3d at 1359-60 (“Congress
meant to allow litigation challenging the new system by,
and only by, aliens against whom the new procedures
had been applied”).
The statute’s legislative history also reveals that
Congress was concerned that § 1252(f)(1) not hamper a
district court’s ability to address imminent rights viola­
tions. See H.R. Rep. No. 104-469(1), at 161 (1996) (ex­
plaining that § 1252(f)(1) limited courts’ “authority to
enjoin procedures established by Congress to reform
the process of removing illegal aliens from the U.S.,” but

28a
preserved their ability to “issue injunctive relief per­
taining to the case of an individual alien, and thus pro­
tect against any immediate violation of rights”). This
history supports the view that Congress intended
§ 1252(f)(1) to restrict courts’ power to impede the new
congressional removal scheme on the basis of suits
brought by organizational plaintiffs and noncitizens not
yet facing proceedings under 8 U.S.C. §§ 1221-1232.
Here, where the class is composed of individual nonciti­
zens, each of whom is in removal proceedings and facing
an immediate violation of their rights, and where the dis­
trict court has jurisdiction over each individual member
of that class, classwide injunctive relief is consistent
with that congressional intent.
Thus, upon interlocutory review, we conclude that
§ 1252(f)(1) did not bar the district court from granting
preliminary injunctive relief for this class of noncitizens,
each of whom is an individual noncitizen against whom
removal proceedings have been initiated.
VI
Although defendants dispute the district court’s
authority to issue classwide injunctive relief under §
1252(f)(1), defendants do not challenge the scope of the
preliminary injunction. We conclude that the district
court did not abuse its discretion in granting a prelimi­
nary injunction with respect to the nationwide class.
Where, as here, a district court has already certified
a nationwide class, the concerns associated with broad
injunctions are minimized. “If a class action is other­
wise proper, and if jurisdiction lies over the claims of
the members of the class, the fact that the class is na­
tionwide in scope does not necessarily mean that the

29a
relief afforded the plaintiffs will be more burdensome
than necessary to redress the complaining parties.”
Califano, 442 U.S. at 702. Cf. Easyriders Freedom
F.I.G.H.T. v. Hannigan, 92 F.3d I486, 1501 (9th Cir.
1996) (“[Ijnjunctive relief generally should be limited to
apply only to named plaintiffs where there is no class
certification.”). “[T]he scope of [a] remedy is deter­
mined by the nature and extent of the . .. violation,”
Milliken v. Bradley, 433 U.S. 267, 270 (1977), and “not
by the geographical extent of the plaintiff,” Califano,
442 U.S. at 702.
The nationwide class in this case is defined by a
shared alleged constitutional violation. See Padilla,
No. Cl8-928 MJP, 2019 WL 1056466, at *6 (W.D. Wash.
Mar. 6, 2019). The injunction seeks to remedy that
constitutional violation. In certifying the class, the
court observed that, in addition to establishing numerosity, commonality, typicality and adequacy, plaintiffs
had demonstrated “that the challenged conduct is ‘such
that it can be enjoined or declared unlawful only as to all
of the class members or as to none of them.”’ Id.
(quoting Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338,
360 (2011)). The court further concluded that certifica­
tion of a nationwide class was “manifestly” appropriate,
and it rejected defendants’ request to limit the scope of
class certification. See id,7 Defendants did not seek
7 The district court rejected defendants’ request to limit the class
to individuals located in the Western District of Washington. Id.
The court noted that class representatives were transferred all over
the country before landing in Washington and that detained immi­
grants are routinely transferred throughout the country prior to ad­
judicating their cases. Id. The court also found that defendants
apply a uniform “indefinite detention” policy across the country and
that class members face the same allegedly improper circumstances

30a
to appeal class certification on any grounds, nor have
they suggested at any point during this appeal that the
nationwide scope of the certified class is improper. We
have already concluded that the district court did not
abuse its discretion in holding that members of the cer­
tified class are constitutionally entitled to bond hear­
ings. Therefore, we cannot conclude that the district
court abused its discretion in issuing classwide prelimi­
nary injunctive relief. Nonetheless, on remand, in con­
sidering the appropriate procedures that must be fol­
lowed with respect to the required bond hearings, the
district court must revisit the nationwide scope of the
injunction to ensure that it is not “more burdensome
than necessary to redress the complaining parties.”
See Califano, 442 U.S. at 702.
VII
In sum, the district court did not abuse its discretion
in concluding that plaintiffs are likely to succeed on their
challenge under the Due Process Clause to the detention
of class members without any opportunity for a bond
hearing. The district court likewise did not abuse its
discretion in finding plaintiffs would suffer irreparable
harm absent preliminary relief and that the balance of
the equities and public interest favored plaintiffs. Part
B of the district court’s preliminary injunction is thus
of detention regardless of their location. Id. The court could not
identify—and defendants did not cite—any ongoing litigation of the
same issue in other districts. Id. Finally, noting that the overwhelm­
ing majority of class members are not sufficiently resourced to pur­
sue individual litigation, the court rejected defendants’ argument
that class members should be afforded the opportunity to seek “speed­
ier individual recovery.” Id. Defendants have not raised any sim­
ilar arguments on appeal.

31a
AFFIRMED, except to the extent that it requires that
bond hearings be administered under the conditions
enumerated in Part A.
We VACATE and REMAND Part A of the preliminary
injunction to the district court for further factual devel­
opment and consideration of the procedures that must
be followed with respect to the required bond hearings.
The district court must further develop the relevant fac­
tual record and revisit the scope of the injunction.
AFFIRMED IN PART; VACATED AND REMANDED
IN PART.

32a
Bade, Circuit Judge, dissenting:
In keeping with the current trend in constitutional
challenges to the enforcement of immigration statutes,
the district court issued a classwide, nationwide prelim­
inary injunction against the operation of 8 U.S.C.
§ 1225(b)(l)(B)(ii). But Congress plainly barred lower
courts from issuing such injunctions except as to “an in­
dividual alien,” 8 U.S.C. § 1252(f)(1), and the Supreme
Court has construed § 1252(f)(1) as a jurisdictional bar
on a lower court’s ability to issue classwide injunctive
relief. Despite this authority (and the plain language
of the statute, general statutory construction principles,
and the holdings of two of our sister circuits), the major­
ity opinion finds jurisdiction in this case.
I respectfully dissent.
I.
Section 1252(f)(1) is straightforward.
that:

It provides

Regardless of the nature of the action or claim or of
the identity of the party or parties bringing the ac­
tion, no court (other than the Supreme Court) shall
have jurisdiction or authority to enjoin or restrain
the operation of the provisions of part IY of this sub­
chapter . . . other than with respect to the appli­
cation of such provisions to an individual alien against
whom proceedings under such part have been initi­
ated.
8 U.S.C. § 1252(f)(1). Recognizing the simplicity of
this language, the Supreme Court has repeatedly inter­
preted this statute as a bar on classwide injunctive relief
against the operation of 8 U.S.C. §§ 1221-1232. See

33a
Jennings v. Rodriguez, 138 S. Ct. 830, 851 (2018) (con­
firming that § 1252(f)(1) bars federal courts from issu­
ing classwide injunctive relief against the operation of
§§ 1221-1232); Nken v. Holder, 556 U.S. 418, 431 (2009)
(describing § 1252(f)(1) as “a provision prohibiting class
wide injunctions against the operation of removal provi­
sions”); Reno v. Am.-Arab Anti-Discrimination Comm.
(“AADC”), 525 U.S. 471, 481-82 (1999) (“By its plain
terms, and even by its title, that provision is nothing
more or less than a limit on injunctive relief. It prohib­
its federal courts from granting classwide injunctive re­
lief against the operation of §§ 1221-123[2], but specifies
that this ban does not extend to individual cases.”).
The majority opinion brushes these cases aside be­
cause the Supreme Court has yet to construe § 1252(f)(1)
in a case brought by a class of aliens all of whom were in
removal proceedings. Maj. Op. 30-31. Although the
majority opinion is correct that AADC and Nken were
not class actions brought by aliens in removal proceed­
ings, Jennings was such a class proceeding. And in
that case, the Court was dubious that a lower court
would have jurisdiction to issue a classwide injunction in
the context of a constitutional challenge to §§ 1221-1232.
See Jennings, 138 S. Ct. at 851 (explaining that the
Ninth Circuit’s reasoning for exercising jurisdiction
over a class action statutory claim seeking injunctive re­
lief against the operation of §§ 1225-1226 “does not seem
to apply to an order granting relief on constitutional
grounds”).1

1 In Jennings, the Ninth Circuit exercised jurisdiction over a stat­
utory challenge brought by a class of aliens in removal proceedings
because the claim was premised on conduct allegedly “not author-

34a
Nothing in the Supreme Court’s precedent suggests
that the Court has changed its mind since deciding Jen­
nings. And, even if we characterize the Court’s repeated
statements about § 1252(f)(1) as dicta, we are “advised
to follow” them. Lemoge v. United States, 587 F.3d
1188, 1193 (9th Cir. 2009) (quoting Fernandez-Ruiz v.
Gonzales, 466 F.3d 1121,1129 (9th Cir. 2006) (enbanc));
see, e.g., United States v. Montero-Camargo, 208 F.3d
1122, 1132 n.17 (9th Cir. 2000) (en banc) (noting that
“Supreme Court dicta have a weight that is greater than
ordinary judicial dicta as prophecy of what that Court
might hold” (internal quotation marks and citation omit­
ted)). The majority opinion does not follow the Court’s
interpretation of § 1252(f)(1), but then fails to persua­
sively explain why the Court would—despite its skepti­
cism in Jennings—rule differently in the circumstances
of this case.
Even if we could (or should) sidestep Jennings,
Nken, and AADC, a proper statutory analysis leads to
the same result. The majority opinion’s conclusion
that jurisdiction exists is based on a faulty reading of
§ 1252(f )(l)’s plain language and misapplication of stat­
utory construction principles.
II.
When construing a statute, “no clause, sentence, or
word shall be superfluous, void, or insignificant.”
TRW Inc. v. Andrews, 534 U.S. 19, 31 (2001) (citation
ized by the statutes” and therefore the claim did not go to the “oper­
ation of” the removal provisions. 138 S. Ct. at 851. Here, in contrast,
Plaintiffs do not argue that their constitutional challenge seeks to
prevent conduct not authorized by § 1225(b)(l)(B)(ii); they directly
challenge the “operation of” that statute.

35a
omitted). The majority opinion’s reading of § 1252(f)(1)
—specifically its interpretation of “an individual alien”
—departs from this long-established rule. As the ma­
jority opinion construes the statute, the word “individ­
ual” stands as a mere superfluity. See Hamama v. Adducci (“Hamama /”), 912 F.3d 869, 877 (6th Cir. 2018)
(“There is no way to square the concept of a class action
lawsuit with the wording ‘individual’ in [§ 1252(f)(1)].”).
The majority opinion defines “individual” as the op­
posite of “organization,” apparently concluding that Con­
gress added “individual” to § 1252(f)(1) to ensure that
“alien” refers to a person, not an artificial entity. Maj.
Op. 32. But this definition renders “individual” super­
fluous because an organizational or artificial entity “al­
ien” does not exist for purposes of the immigration stat­
utes. See 8 U.S.C. § 1101(a)(3) (defining “alien” as “any
person not a citizen or national of the United States”).
To be given effect, “individual” can only be read as an
adjective providing a separate, numerical limitation on
the clause’s noun, “alien.” See Individual, Black’s Law
Dictionary (11th ed. 2019) (defining “individual” when
used as an adjective as “[e]xisting as an indivisible en­
tity” or “[o]f, relating to, or involving a single person or
thing, as opposed to a group” (emphasis added)).2
2 The Dictionary Act instructs that when a statute includes a word
“importing the singular,” that word applies to “several persons, par­
ties, or things” “unless the context indicates otherwise.” 1 U.S.C.
§ 1. Here, “alien” is a singular term and thus should generally be
construed as applying to multiple aliens. The context of § 1252(f)(1),
however, indicates otherwise: by adding the adjective “individual,”
Congress placed a specific, standalone numerical limitation on the
term “alien.” If the Dictionary Act required both “individual” and
“alien” to be read as applying to multiple persons, “individual” be­
comes superfluous.

36a
The majority opinion’s construction would be palata­
ble only if Congress had replaced the phrase “an indi­
vidual alien” with “any alien” or “an alien”—as it did in
over a dozen other subsections of the statute. See, e.g.,
8 U.S.C. §§ 1252(a)(2)(C), 1252(b)(3)(B), 1252(b)(4)(C),
1252(b)(9), 1252(e)(1)(A), 1252(e)(4)(B), 1252(f)(2),
1252(g).3 Had Congress used either of these alterna­
tives, there would be no separate numerical limitation
on “alien,” there would be no reason for us to define “in­
dividual,” and the majority opinion’s perceived legisla­
tive goal of preventing organization-led preemptive
challenges to immigration statutes would be achieved.
But we cannot rewrite the statute, see Dodd v. United
States, 545 U.S. 353, 359 (2005) (“[W]e are not free to
rewrite the statute that Congress has enacted.”), nor
can we overlook Congress’s use of different language in
separate provisions of the same statute, see Sosa v.
Alvarez-Machain, 542 U.S. 692, 711 n.9 (2004). Con­
gress specifically precluded lower courts from issuing
injunctive relief except as to “an individual alien,” and
that is the language we must enforce. See Dodd, 545
U.S. at 359. And because Congress “use[d] certain lan­
guage in one part of the statute and different language
in another, [we] assume[] different meanings were in­
tended.” Sosa, 542 U.S. at 711 n.9 (citation omitted).
III.
The majority opinion also posits that if Congress in­
tended to bar classwide injunctive relief, it would have
explicitly barred class actions like it did in a neighboring
statute, 8 U.S.C. § 1252(e)(1)(B). Maj. Op. 31-32. But
3 In § 1252, the phrase “an individual alien” is found only in sub­
section (f)(1), while “an alien” and “any alien” are used fifteen times
in subsections (a), (b), (e), (f)(2), and (g).

37a
barring class certification altogether (the function of
§ 1252(e)(1)(B)) fundamentally differs from barring a
type of relief that a court can issue (the function of
§ 1252(f)(1)). The two statutes serve different pur­
poses, and § 1252(f)(1) does not preclude class actions
wholesale; it narrowly limits the available relief.
The majority opinion relies, in part, on Califano v.
Yamasaki, 442 U.S. 682 (1979), to argue that Congress
did not intend to prohibit classwide injunctive relief in
§ 1252(f)(1). This reliance on Califano, a case analyz­
ing a provision in the Social Security Act, 42 U.S.C.
§ 405(g), is misplaced. In Califano, the Court found
that a statute affirmatively authorizing a suit by “[a]ny
individual” did not foreclose class actions because Fed­
eral Rule of Civil Procedure 23 “provides a procedure by
which [a] court may exercise . . . jurisdiction over
the various individual claims in a single proceeding.”
442 U.S. at 701. But 42 U.S.C. § 405(g) and 8 U.S.C.
§ 1252(f)(1) differ materially in form and in substance.
The former explicitly authorizes “[a]ny individual” to
file a lawsuit and thus is a jurisdictional conferring stat­
ute. See 42 U.S.C. § 405(g). It does not prohibit a
court from issuing a specific form of relief, nor does it
carve out an exception to a general statutory bar. In
contrast, the latter is a jurisdictional stripping statute
that categorically bars a type of relief but carves out a
narrow exception for “an individual alien.” See 8 U.S.C.
§ 1252(f)(1). It does not fully foreclose a class or multi­
party lawsuit, see Rodriguez v. Marin, 909 F.3d 252, 259
(9th Cir. 2018), nor does it grant jurisdiction, seeAADC,
525 U.S. at 481-82. And in contrast to § 405(g)’s use of
“individual” as a standalone noun, § 1252(f)(1) uses “in­
dividual” as an adjective to numerically limit “alien.”

38a
In short, Califano “does not stop the [cjourt from look­
ing at a particular statute that uses the word ‘individual’
and determining that, even if the use of ‘individual’ does
not always bar class actions, it does bar them in the par­
ticular statute at issue.” Hamama I, 912 F.3d at 878.
Section 1252(f)(l)’s title (“Limit on injunctive re­
lief”) and its first clause (“Regardless of the nature of
the action or claim or of the identity of the party or par­
ties bringing the action”) further demonstrate its func­
tional difference from 8 U.S.C. § 1252(e)(1)(B) and 42
U.S.C. § 405(g). As recognized by the Supreme Court,
§ 1252(f)(l)’s title portends what the language of the
statute makes plain: the statute generally prohibits in­
junctive relief. See AADC, 525 U.S. at 481-82. And
its opening clause recognizes that a lower court has ju­
risdiction over cases filed by multiple “parties,” but
states that “[rjegardless” of whether the action is brought
by one “party” or multiple “parties,” lower courts cannot
issue injunctive relief except as to “an individual alien
against whom proceedings under such part have been
initiated.” 8 U.S.C. § 1252(f)(1). Thus, by its explicit
terms, § 1252(f)(1) bars both classwide injunctions and
injunctive relief for aliens who are not in removal pro­
ceedings.
IV.
Perhaps seeking a foothold for its shaky analysis, the
majority opinion also resorts to the statute’s legislative
history. Maj. Op. 32-34. But “where, as here, the
words of the statute are unambiguous, the judicial in­
quiry is complete.” Desert Palace, Inc. v. Costa, 539
U.S. 90, 98 (2003) (internal quotation marks and citation
omitted); see Robinson v. Shell Oil Co., 519 U.S. 337,340

39a
(1997) (“Our inquiry must cease if the statutory lan­
guage is unambiguous and the statutory scheme is co­
herent and consistent.” (internal quotation marks and
citation omitted)). The majority opinion fails to iden­
tify any ambiguity in § 1252(f)(1), nor have I discovered
any such language.
In any event, the scant discussion in the statute’s leg­
islative history specifically addressing § 1252(f)(1) does
not salvage the majority opinion’s interpretation. With­
out explaining the relevance, the majority opinion first
notes that Congress enacted § 1252(f)(1) after a “pe­
riod” when organizational plaintiffs filed “preemptive
challenges” against “the enforcement of certain immi­
gration statutes.” Maj. Op. 32. This statement may
be true as far as it goes, but we should not bootstrap our
interpretation of a statute on a hypothesis that Congress
silently intended the legislation to prevent organizationled preemptive lawsuits of which it may have been una­
ware.4
The majority opinion also relies on a House Commit­
tee report to support its reading of § 1252(f)(1) as allow­
ing classwide injunctive relief when each class member
“is in removal proceedings and facing an immediate vio­
lation of rights.” Maj. Op. 33-34. The relevant por­
tion of this report provides, in full, as follows:
4 We, of course, can assume that Congress was “aware of relevant
judicial precedent” when it enacted § 1252(f)(1), see Merck & Co. v.
Reynolds, 559 U.S. 633, 648 (2010), but for what “relevant judicial
precedent” would we assume such Congressional awareness? The
majority opinion does not identify any pre-§ 1252(f)(1) case address­
ing the threshold jurisdictional question at issue here—nor can it:
the statutory bar on classwide injunctive relief did not exist until the
enactment of § 1252(f)(1) in 1996.

40a
Section 306 also limits the authority of Federal courts
other than the Supreme Court to enjoin the operation
of the new removal procedures established in this leg­
islation. These limitations do not preclude challenges
to the new procedures, but the procedures will re­
main in force while such lawsuits are pending. In
addition, courts may issue injunctive relief pertaining
to the case of an individual alien, and thus protect
against any immediate violation of rights. How­
ever, single district courts or courts of appeal do not
have authority to enjoin procedures established by
Congress to reform the process of removing illegal
aliens from the U.S.
H.R. Rep. No. 104-469(1), at 161 (1996).
Although this report holds “no binding legal effect,”
Nw. Envtl. Def Ctr. v. Bonneville Power Admin., 477
F.Bd 668, 684 (9th Cir. 2007), the majority opinion em­
phasizes the phrase “immediate violation of rights.” In
so doing, it overlooks the preceding clause: “courts
may issue injunctive relief pertaining to the case of an
individual alien." H.R. Rep. No. 104-469(1), at 161 (em­
phasis added). Like the statute itself, this language spe­
cifically describes the scope of the carve out using sin­
gular phrasing. And the next sentence firmly states
that lower courts cannot “enjoin procedures established
by Congress to reform the process of removing illegal al­
iens from the U.S.” Id. Contrary to the majority opin­
ion’s view, this report shows that Congress wanted to
prevent lower courts from issuing sweeping injunctions
—such as the classwide, nationwide injunction at issue
here—against its enacted removal procedures.

41a
In sum, the legislative history does not support the
majority opinion’s reading of § 1252(f)(1). It is ambig­
uous at best and cannot override the clear statutory lan­
guage. See Azar v. Allina Health Servs., 139 S. Ct. 1804,
1814 (2019) (“[E]ven those of us who believe that clear
legislative history can illuminate ambiguous text won’t
allow ambiguous legislative history to muddy clear stat­
utory language.” (internal quotation marks and cita­
tion omitted)).
V.
I am not the first to conclude that § 1252(f)(1) bars
classwide injunctive relief under the circumstances of
this case. In a constitutional challenge to continued de­
tention under the immigration statutes brought by a
class of aliens in removal proceedings, the Sixth Circuit
applied the Supreme Court’s reading of § 1252(f)(1) to
hold that the statute bars classwide injunctive relief.
See Hamama I, 912 F.3d at 877 (“In our view, [AADC]
unambiguously strips federal courts of jurisdiction to
enter class-wide injunctive relief[.]”); see also Hamama
v. Adducci (“Hamama II”), 946 F.3d 875, 877 (6th Cir.
2020) (“Congress stripped all courts, save for the Su­
preme Court, of jurisdiction to enjoin or restrain the op­
eration of 8 U.S.C. §§ 1221-1232 on a class-wide basis.”
(citing 8 U.S.C. § 1252(f)(1))). The Tenth Circuit reached
the same result. See Van Dinh v. Reno, 197 F.3d 427,
433 (10th Cir. 1999) (holding that “§ 1252(f) forecloses
jurisdiction to grant class-wide injunctive relief to re­
strain operation of §§ 1221-[12]3[2] by any court other
than the Supreme Court”).
We should “decline to create a circuit split unless
there is a compelling reason to do so.” Kelton Arms
Condo. Owners Ass’n, Inc. v. Homestead Ins. Co., 346

42a
F.3d 1190, 1192 (9th Cir. 2003). The majority opinion
fails to identify such a “compelling reason.” As a re­
sult, even though we trail two other circuits in address­
ing this issue, the majority opinion makes us the first
and only circuit to conclude that § 1252(f)(1) does not
bar classwide injunctive relief.
VI.
Even if the district court had jurisdiction to issue
classwide injunctive relief, the preliminary injunction is
overbroad and extends far beyond the demands of due
process.
The district cpurt certified the Bond Hearing Class
as:
All detained asylum seekers who entered the United
States without inspection, were initially subject to ex­
pedited removal proceedings under 8 U.S.C. § 1225(b),
were determined to have a credible fear of persecu­
tion, but are not provided a bond hearing with a ver­
batim transcript or recording of the hearing within
seven days of requesting a bond hearing.
Padilla v. U.S. Immigration & Customs Enf’t, No. CIS928 MJP, 2019 WL 1056466, at *1 (W.D. Wash. Mar. 6,
2019). The district court then issued the two-part pre­
liminary injunction that is the subject of this appeal.
In Part A of the injunction, the district court ordered
the government to provide bond hearings with various
procedures that supposedly are required by the Consti­
tution, including that the hearings be conducted within
seven days of a request. Padilla v. U.S. Immigration
& Customs Enf’t, 387 F. Supp. 3d 1219, 1232 (W.D.
Wash. 2019). In Part B, the district court “f [ound] that
the statutory prohibition at [§ 1225(b)(l)(B)(ii)] against

43 a
releasing on bond persons found to have a credible fear
and awaiting a determination of their asylum application
violates the U.S. Constitution.” Id. In Part B, the
district court also found that “the Bond Hearing Class
is constitutionally entitled to a bond hearing before a
neutral decisionmaker (under the conditions enumer­
ated [in Part A]) pending resolution of their asylum ap:
plications.” Id.
The majority opinion concludes that “[t]he current
record is ... insufficient to support the district
court’s findings with respect to likelihood of success, the
harms facing plaintiffs, and the balance of the equities
implicated by Part A of the preliminary injunction—and
particularly with respect to the requirement that the
class members receive a bond hearing within seven days
of making such a request or be released.” Maj. Op. 28.
The majority opinion finds that the record “does not
contain sufficient specific evidence justifying a sevenday timeline, as opposed to a 14-day, 21-day, or some
other timeline.” Maj. Op. 28. Ultimately, the major­
ity opinion affirms Part B “except to the extent that it
requires that bond hearings be administered under the
conditions enumerated in Part A” and remands Part A
for “further factual development and consideration” of
the bond hearing procedures. Maj. Op. 36.
This holding raises multiple concerns, and Part B’s
breadth is the most troublesome. Plaintiffs concede that
they do not assert a facial challenge to § 1225(b)(l)(B)(ii).
Nonetheless, in Part B the district court deems the stat­
ute unconstitutional in its entirety, rather than as ap­
plied to the Bond Hearing Class. See Padilla, 387
F. Supp. 3d at 1232 (“[F]ind[ing] that the statutory pro­
hibition at [§ 1225(b)(l)(B)(ii)] against releasing on bond

44a
persons found to have a credible fear and awaiting a de­
termination of their asylum application violates the U.S.
Constitution^]”).
Section 1225(b)(l)(B)(ii) requires
the government to detain multiple categories of aliens,
not only those aliens who meet the definition of the
Bond Hearing Class.5 But the district court did not ex­
clude from its sweeping finding of unconstitutionality
the application of the statute to detain other aliens who
are not members of the Bond Hearing Class, such as
“arriving” aliens under § 1225(b)(l)(A)(ii). By render­
ing § 1225(b)(l)(B)(ii) wholly unconstitutional, Part B is
overbroad.6
6 Section 1225(b)(l)(B)(ii) mandates detention of any alien re­
ferred to in § 1225(b)(l)(A)(ii) who an asylum officer determines has
a credible fear of persecution. See 8 U.S.C. § 1225(b)(l)(B)(i)-(ii).
Section 1225(b)(l)(A)(ii) refers to two types of aliens: (1) those
“arriving in the United States”; and (2) those “described” in
§ 1225(b)(1)(A)(iii), including an alien “who has not been admitted or
paroled into the United States, and who has not affirmatively shown
. . . that the alien has been physically present in the United States
continuously for the 2-year period immediately prior to the date of
the determination of inadmissibility.” 8 U.S.C. § 1225(b)(l)(A)(ii)(iii). Members of the Bond Hearing Class are in the latter group,
and do not include arriving aliens.
6 The law has long recognized a distinction between the process
due to aliens arriving at our borders and to those who have already
entered the country. See, e.g., Zadvydas v. Davis, 533 U.S. 678,693
(2001) (“It is well established that certain constitutional protections
available to persons inside the United States are unavailable to al­
iens outside of our geographic borders.”). And unlike members of
the Bond Hearing Class, arriving aliens have not entered the coun­
try. See, e.g., Alvarez-Garcia v. Ashcroft, 378 F.3d 1094, 1097 (9th
Cir. 2004) (“[A]lthough aliens seeking admission into the United
States may physically be allowed within its borders pending a deter­
mination of admissibility, such aliens are legally considered to be de­
tained at the border and hence as never having effected entry into

45a
Furthermore, the majority opinion suggests that alt­
hough the record does not support a seven-day deadline
for bond hearings, it may support a 14-day, 21-day, or
other unspecified but presumably similarly limited
deadline. See Maj. Op. 28. But decisions made in sim­
ilar contexts by the Supreme Court and this court estab­
lish that due process is not so demanding. Rather,
these cases hold that, as a constitutional matter, the gov­
ernment need only provide bond hearings to detained
aliens once the detention becomes “prolonged” or fails
to serve its immigration purpose, a period generally un­
derstood to be six months. See Clark v. Martinez, 543
U.S. 371, 386 (2005) (applying a “6-month presumptive
detention period”); Demore v. Kim, 538 U.S. 510, 527-31
(2003) (upholding as constitutional the detention of al­
iens for the entire duration of removal proceedings un­
der 8 U.S.C. § 1226(c)); Zadvydas, 533 U.S. at 699, 70102 (holding that six months is a “presumptively reason­
able period of detention” under 8 U.S.C. § 1231(a)(6));
Marin, 909 F.3d at 256-57 (expressing doubt “that any
statute that allows for arbitrary prolonged detention
without any process is constitutional”); Diouf v. Napolitano, 634 F.3d 1081, 1092 n.13 (9th Cir. 2011) (defining
detention under 8 U.S.C. § 1231(a)(6) as “prolonged
when it has lasted six months and is expected to continue
more than minimally beyond six months”).7
this country.”). The detention of arriving aliens under § 1225(b)(l)(B)(ii)
was not an issue before the district court (or this court) in this asapplied challenge.
7 The impact of a longer detention period runs deeper than the
preliminary injunction; it creates an Article III standing dilemma
for the Bond Hearing Class. Standing requires, among other things,
an actual or imminent injury in fact, see Lujan v. Defenders of Wild­
life, 504 U.S. 555, 560 (1992), and “at least one named plaintiff” in a

46a
Although “detention during deportation proceedings
[i]s a constitutionally valid aspect of the deportation pro­
cess,” Demore, 538 U.S. at 523, the majority opinion
cites no decision from the Supreme Court or this court
suggesting that two or three weeks constitutes “pro­
longed” detention. 8
VII.
The majority opinion does not square with the plain
text of § 1252(f)(1), is inconsistent with multiple Su­
preme Court cases, and needlessly creates a circuit split.
Despite Congress unequivocally barring lower courts
from issuing classwide injunctions against the operation
of certain immigration statutes, the majority opinion gives
a green light for the district courts in this circuit (as well
as this court) to issue (and uphold) such relief. And,
even if the district court had jurisdiction to issue injunc­
tive relief, the preliminary injunction is overbroad and
exceeds what the Constitution demands.
class action must establish standing, see Bates v. United, Parcel Serv.,
Inc., 511 F.3d 974,985 (9th Cir. 2007) (en banc). As the district court
found, the longest period a named plaintiff for the Bond Hearing
Class waited to obtain a bond hearing after securing a positive cred­
ible fear determination was about three weeks, see Padilla, 2019 WL
1056466, at *1-2, a period far shorter than the presumptively reason­
able six months.
8 As to the other procedural requirements imposed by the district
court in Part A of the preliminary injunction (e.g., placing the burden
of proof on the government, requiring the government to record the
bond hearing and produce the recording or a verbatim transcript on
appeal, and requiring the government to provide a written decision
with particularized determinations of individualized findings on the
same day as the hearing), I agree with the majority opinion that the
record does not support those procedures, and I find it exceedingly
unlikely that the Constitution mandates them.

47a
I would vacate the preliminary injunction and re­
mand for further proceedings with instructions to dis­
miss the claims for classwide injunctive relief. I re­
spectfully dissent.

48a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-35565
D.C. No. 2:18-cv-00928-MJP
Western District of Washington, Seattle
Yolany Padilla; et al., plaintiffs-appellees
v.
Immigration and Customs Enforcement; et al.,
DEFENDANTS-APPELLANTS
AND

United States Department of Health and Human
Services, FKA Department of Social Services;
ETAL., DEFENDANTS

[Filed:

July 22, 2019]
ORDER

Before: SCHROEDER, Canby, and CHRISTEN, Circuit
Judges.
The temporary stay imposed on July 12, 2019 is lifted.
Appellants’ emergency motion for a stay of the district
court’s April 5, 2019 and July 2, 2019 orders pending ap­
peal (Dkt. Entry No. 10) is granted in part and denied
in part.

49a
Our court has interpreted Nken v. Holder, 556 U.S.
418 (2009), to stand for the proposition that a stay appli­
cant:
“must show that irreparable harm is probable and
either: (a) a strong likelihood of success on the merits
and that the public interest does not weigh heavily
against a stay; or (b) a substantial case on the merits
and that the balance of hardships tips sharply in the
petitioner’s favor.”
Leiva-Perez v. Holder, 640 F.3d 962, 970 (9th Cir. 2011)
(emphasis added).
In Part B, the district court ordered that the Bond
Hearing Class is constitutionally entitled to bond hear­
ings pending resolution of their asylum applications.
The government raises a serious question whether, un­
der 8 U.S.C. § 1252(f)(1), the district court lacked the
authority to enter Part B of this classwide injunctive re­
lief. See Jennings v. Rodriguez, 138 S. Ct. 830, 844
(2018); Reno v. American-Arab Anti-Discrimination
Committee, 525 U.S. 471, 481-82 (1999); see also Nken,
556 U.S. at 431 (describing § 1252(f)(1) as “a provision
prohibiting classwide injunctions against the operation
of removal provisions”); Hamama v. Adducci, 912 F.3d
869, 877 (6th Cir. 2018) (same). But the government
does not contend that § 1252(f)(1) prohibited the district
court from entering an injunction with respect to the in­
dividual class representatives’ Part B claims. Nor has
the government made a persuasive showing that it will
suffer irreparable harm if it is required to provide bond
hearings pending the outcome of this appeal in the same
way it had done for several years before the Attorney
General issued Matter of M-S-, 27 I. & N. Dec. 509, 509
(BIA 2019). See Leiva-Perez, 640 F.3d at 970. Further,

50a
the government failed to show a likelihood of success on
the merits of its underlying argument that the govern­
ment may indefinitely detain the plaintiffs without af­
fording bond hearings at all. We therefore decline to
stay Part B of the district court’s injunction.
In Part A, the district court’s injunction requires that
the Executive Office of Immigration Reform (EOIR)
hold hearings within seven days, release any class mem­
ber whose detention exceeds that limit, produce a ver­
batim transcript, shift the burden of proof to the De­
partment of Homeland Security, and issue written deci­
sions on the same day a bond hearing is held. Although
the government has not been able to quantify the num­
ber of individuals who have received credible fear deter­
minations and are subject to detention, it nevertheless
makes a persuasive showing that the requirements of
Part A are particularly burdensome. We conclude that
permitting Part A’s procedural requirements to take ef­
fect pending the outcome of this appeal—which would
require the government to implement a set of rules that
may be only temporary—would impose short-term hard­
ship for the government and its immigration system, and
that the public interest does not weigh heavily against a
stay. Accordingly, we stay Part A of the district
court’s injunction.
This result maintains the status quo ante during
what is now an expedited appeals process. See Nken,
556 U.S. at 429 (“A stay ‘simply suspend[s] judicial al­
teration of the status quo[.]’” (quoting Ohio Citizens
for Responsible Energy v. NRC, 479 U.S. 1312, 1313
(1986) (Scalia, J., in chambers)). Our decision leaves
the pre-existing framework in place while a merits panel
resolves this appeal.

51a
Appellants’ request to expedite the consideration of
the merits of this preliminary injunction appeal is granted.
The current briefing schedule shall remain in effect.
The clerk shall place this appeal on the calendar for Oc­
tober 2019. See 9th Cir. Gen Order 3.3(g).

52a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
Case No. C18-928 MJP
Yolany Padilla; et al., plaintiffs
v.
U.S. Immigration and Customs Enforcement;
ETAL., DEFENDANTS

Filed:

July 2, 2019

ORDER ON MOTIONS RE:
PRELIMINARY INJUNCTION
The above-entitled Court, having received and re­
viewed:
1.

Defendants’ Motion to Vacate the Court’s Pre­
liminary Injunction Order (Dkt. No. 114), Plain­
tiffs’ Response in Opposition (Dkt. No. 126), and
Defendants’ Reply in Support (Dkt. No. 128);

2.

Plaintiffs’ Motion for Modification of the Exist­
ing Preliminary Injunction (Dkt. No. 131), De­
fendants’ Response in Opposition (Dkt. No. 139),
and Plaintiffs’ Reply in Support (Dkt. No. 140);

all attached declarations and exhibits; and relevant por­
tions of the record, and having heard oral argument on
the motions, rules as follows:

53a
IT IS ORDERED that the injunction entered by this
Court on April 5, 2019 is MODIFIED as follows:
PART A: The Court AFFIRMS its previouslyentered injunctive relief requiring Defendant Executive
Office for Immigration Review to:
1.

Conduct bond hearings within seven days of a
bond hearing request by a class member, and re­
lease any class member whose detention time ex­
ceeds that limit;

2.

Place the burden of proof on Defendant Depart­
ment of Homeland Security in those bond hear­
ings to demonstrate why the class member should
not be released on bond, parole, or other condi­
tions;

3.

Record the bond hearing and produce the re­
cording or verbatim transcript of the hearing
upon appeal; and

4.

Produce a written decision with particularized
determinations of individualized findings at the
conclusion of the bond hearing.

PART B: The Court MODIFIES the injunction to
find that the statutory prohibition at Immigration and
Nationality Act § 235(b)(l)(B)(ii) against releasing on
bond persons found to have a credible fear of persecu­
tion if returned to their country and awaiting a determi­
nation of their asylum application violates the U.S. Con­
stitution; the Bond Hearing Class is constitutionally en­
titled to a bond hearing (under the conditions enumer­
ated above) pending resolution of their asylum applica­
tions.

54a
IT IS FURTHER ORDERED that the injunction as
modified will go into effect 14 days from the date of this
order.
Summary
On March 16, 2019, this Court certified a Bond Hear­
ing Class consisting of immigrants who have entered the
United States without inspection, requested asylum, and
who the Government has determined have a credible
fear of persecution if they return home. The Court ruled,
if the members of this class are given a bond hearing, it
must comply with the Due Process Clause. An injunc­
tion ordering the Defendants to do so has already is­
sued.
The first decision was based, not only on the Court’s
analysis of the constitutional due process owed to these
class members, but also on 50 years of statutory and case
law supporting the right of persons detained for non­
criminal reasons to be released upon posting bond.
Shortly after that injunction was issued, the Attorney
General published a decision announcing that immi­
grants in removal proceedings awaiting the determina­
tion of their application for asylum must be detained for
the duration of that process, subject to release only un­
der a highly-limited “parole” system adjudicated solely
by immigration officials. In the wake of that decision,
the Government moved to vacate the previously-entered
injunction.
It is the finding of this Court that it is unconstitu­
tional to deny these class members a bond hearing while
they await a final determination of their asylum request.

55a
Procedural Background
On April 5, 2019, this Court entered an Order Grant­
ing Preliminary Injunction (Dkt. No. 110) requiring De­
fendant Executive Office for Immigration Review to:
1.

Conduct bond hearings within seven days of a
bond hearing request by a class member, and re­
lease any class member whose detention time ex­
ceeds that limit;

2.

Place the burden of proof on Defendant Depart­
ment of Homeland Security in those bond hear­
ings to demonstrate why the class member should
not be released on bond, parole, or other condi­
tions;

3.

Record the bond hearing and produce the record­
ing or verbatim transcript of the hearing upon ap­
peal; and

4.

Produce a written decision with particularized
determinations of individualized findings at the
conclusion of the bond hearing.

Compliance with the injunction was to be effected no
later than May 5, 2019. RL at 2.
On April 16, 2019, the Attorney General (“AG”) is­
sued a decision in Matter of M-S (27 I. & N. Dec. 509
(A.G. 2019)) overruling a 2005 Board of Immigration
Appeals (“BIA”) determination in Matter of X-K
(23 I. & N. Dec. 731 (BIA 2005) which had been cited in
the preliminary injunction order. On the basis of the
AG’s ruling, the parties (1) agreed to stay the enforce­
ment of the preliminary injunction until May 31,- 2019
(Dkt. No. 113) and (2) filed the cross-motions which are
the subject of this order. Additionally, Plaintiffs filed

56a
a Third Amended Complaint (“TAC”) incorporating chal­
lenges to the AG’s decision in Matter of M-S (Dkt. No.
130), and Defendants moved to dismiss it. (Dkt. No.
136.)
In Matter of M-S, the AG determined that aliens who
are originally placed in expedited removal proceedings
and then transferred to full removal proceedings after
establishing a credible fear do not become eligible for
bond upon transfer and that Matter of X-K. in which the
BIA had ruled that such aliens were entitled to bond
hearings under § 1225(b) of the Immigration and
Nationality Act (“INA”), “was wrongly decided.”
27 I. & N. Dec. at 510. The AG found that aliens clas­
sified as “entering without inspection” (“EWI”) were
subject to mandatory detention without bond following
a successful credible fear determination and could be re­
leased only upon being paroled for “urgent humanitar­
ian reasons or significant public benefit” under 8 U.S.C.
§ 1182(d)(5)(A). Id. at 516.
Discussion
District courts possess the discretionary authority to
“modify or revoke an injunction as changed circum­
stances may indicate.” Lapin v. Shulton, Inc., 333 F.2d
169, 170 (9th Cir. 1964). “[SJound judicial discretion
may call for the modification of the terms of an injunc­
tive decree if the circumstances, whether of law or fact,
obtaining at the time of its issuance, have changed.”
Svs. Fed. No. 91 v. Wright. 364 U.S. 642, 647 (1961).
The Court is unquestionably facing “changed circum­
stances” as a result of the AG’s decision in M-S. While
much of the analysis underlying the issuance of the ini­
tial preliminary injunction in this matter concerned

57a
Plaintiffs’ constitutional rights in the context of their sit­
uation, there is no question that analysis sprang from an
understanding (as a result of the ruling in X-K) that the
class members were entitled to a bond hearing under the
INA.
This order will undertake a fresh analysis of Plain­
tiffs’ claims and their request for modified injunctive re­
lief in light of those changed circumstances, but first
must examine a series of threshold issues which the Gov­
ernment has raised as bars to continued injunctive re­
lief.
I.

Threshold issues
A.

Standing and mootness

The Government argues that the claims of the bond
hearing class were premised on the ruling in X-K (i.e.,
that they were eligible for a bond hearing that they were
not receiving in a timely manner and with the appropri­
ate amount of due process) and thus have been “mooted”
by the M-S determination that the statute does not en­
title them to a bond hearing. The claims of the bond
hearing class survive the ruling in M-S: nowhere in the
Second (and now, the Third) Amended Complaint do
Plaintiffs cite X-K as the basis for the relief they seek—
their claims are premised on the fundamental unconsti­
tutionality of the Government’s claimed right to detain
them indefinitely (see Dkt. No. 26 at HH 13, 151-52; Dkt.
No. 130 at 1H1 8, 117-29) and allegations that the ruling
in M-S and the policies and practices of Defendants vio­
late the APA. (Dkt. No. 130,1111142-146,152-159.)
That the named Plaintiffs (Vasquez and Orantes) are
not currently being detained is also cited as grounds for
challenging their standing and their ability to serve as

58a
class representatives. This is not a sound argument
for two reasons: First, the INA gives Defendants the
right to revoke a bond order at any time on the basis of
“changed circumstances.” 8 U.S.C. § 1226(b). The Gov­
ernment submits a declaration from the Deputy Assis­
tant Director of ICE’s Office of Enforcement and Re­
moval Operations (ERO) which states that “[a]t this
time, ERO does not intend to re-detain aliens who, after
having established credible fear, have an ICE custody
release determination or an Immigration Court final
bond determination pursuant to INA § 236 issued prior
to July 15, 2019.” (Dkt. No. 137, Deck of Hott at 11 6.)
The Court is not persuaded that the conditional “at this
time” language divests Plaintiffs of standing—the Gov­
ernment’s unwillingness to unconditionally assert that
Plaintiffs will not be re-detained means that the specter
of re-detention looms and these Plaintiffs and many
members of their class face the real and imminent threat
of bondless and indefinite detention absent the relief
they seek.1
Second, as this Court has already ruled, the claims of
the bond hearing class continue to be “inherently tran­
sitory” and thus the named Plaintiffs are permitted to
represent the interests of class members whose claims
may both come ripe and/or expire during the course of
the litigation. (See Dkt. No. 102 at 8, Dkt. No. 110 at
5); Sosna v. Iowa. 419 U.S. 393, 402 (1975). Addition­
ally, now that the class is certified to pursue its due pro-

1 The Court notes, along these lines, that as a result of the deci­
sion in M-S the respondent, who was initially ordered released on
bond, was ordered “detained until his removal proceedings con­
clude.” 27 I. & N. at 510.'

59a
cess claims, that class “‘acquire[s] a legal status sepa­
rate from the interest asserted by [the class representa­
tive],’ so that an Article III controversy now exists ‘be­
tween a named defendant and a member of the [certi­
fied] class.’” Pitts v. Terrible Herbst, Inc., 653 F.3d
1081,1090 (9th Cir. 2011) (quoting Sosna at 399; altera­
tions in original).
B.

8 U.S.C. § 1252(f)(1)

In an earlier order denying Defendants’ first motion
to dismiss this matter, this Court declined to be bound
by 8 U.S.C. § 1252(f)(1), which states that “no court
. . . shall have jurisdiction or authority to enjoin or re­
strain the operation of the provisions” of the INA “other
than with respect to the application of such provisions to
an individual alien against whom proceedings under
such part have been initiated.” The Court held that
“Plaintiffs are not asking the Court to enjoin or restrain
the operation of the provisions of any statute, but in­
stead seek an injunction against actions and policies that
violate those statutes.” (Dkt. No. 91 at 19.) That hold­
ing was unquestionably grounded in the Matter of X-K,
which held that Plaintiffs are entitled to a bond hearing
under the INA. With the AG’s determination that X-K
“was wrongly decided,” the parties (and the Court) are
required to address the impact of § 1252(f)(1).
The Government’s position is straightforward: the
effect of this provision is to ban classwide injunctive re­
lief on any issue touching on the enforcement of the
INA. Since it is now “settled” (from the Government’s
perspective) that the INA excludes Plaintiffs from bond
hearings pending final adjudication of their asylum ap­
plication, it can be argued that an injunction which or­
ders bond hearings for Plaintiffs as a class “enjoin[s] or

60a
restraints] the operation” of the statute “other than with
respect to the application of such provisions to an indi­
vidual alien.” There is support for this position in the
Supreme Court’s Jennings v. Rodriguez opinion: “Sec­
tion 1252(f)(1) thus ‘prohibits federal courts from grant­
ing classwide injunctive relief against the operation of
§§ 1221-123[2].”’ 130 S. Ct. at 851; quoting Reno v.
AAADC. 525 U.S. 471, 481 (1999).
Plaintiffs respond by citing to Califano v. Yamasaki,
442 U.S. 682 (1979), where the Supreme Court found (in
regard to a different statutory scheme) that language
authorizing a suit by “[any] individual” did not foreclose
the availability of classwide relief. The Califano Court
ruled that “[w]here the district court has jurisdiction
over the claim of each individual member of the class,
[FRCP] 23 provides a procedure by which the court may
exercise that jurisdiction over the various individual
claims in a single proceeding;” i.e., a class action. Id.
at 700.
Upon remand from the Jennings Court, the Ninth
Circuit appears to be in agreement that Califano is ap­
plicable to a § 1252(f)(1) analysis.
[W]e have jurisdiction under 8 U.S.C. § 1252(f)(1)
... All of the individuals in the putative class are
‘individuals against whom proceedings under such
part have been initiated’ and are pursuing habeas
claims, albeit as a class, which nowhere appears af­
fected by § 1252(f)(1).
Rodriguez v. Marin. 909 F.3d 252, 256-57 (9th Cir. 2018).
The same is true here as regards the Bond Hearing
Class. Additionally, “it is especially significant that
§ 1252(f)(1) is silent as to a prohibition on class actions

61a
when another subsection in the same provision ex­
pressly prohibits class actions.” Arroyo v. U.S. Dept,
of Homeland Security. No. 8:19-cv-00815-JGB-SHK at
*10 (C.D. Cal. June 20,2019) (citing 8 U.S.C. § 1252(e)(l(B).
“Congress’s failure to prohibit class actions for plaintiff
already in removal proceedings is meaningful and inten­
tional.” Id.
And there are further grounds upon which to base
the Court’s authority to grant injunctive relief to this
class. Plaintiffs’ TAC invokes the Court’s habeas juris­
diction (Dkt. No. 130 at 11 8), and their briefing cites the
Supreme Court’s holding in INS v. St. Cvr. 533 U.S. 289,
310-14 (2001) that federal courts will not read a statute
to restrict their power to grant habeas relief unless Con­
gress specifically and explicitly revokes the authority
granted under the federal habeas statute (28 U.S.C.
§ 2241) by name. This approach is endorsed by the
Ninth Circuit: in Rodriguez v. Marin, the Court simi­
larly found that “Section 1252(f)(1) also does not bar the
habeas class action because it lacks a clear statement re­
pealing the court’s habeas jurisdiction.” 909 F.3d 252,
256 (9th Cir. 2018).
The Government argues that the St. Cvr “clear state­
ment” rule is inapplicable where (1) individual habeas
relief is still available and (2) there is no blanket ban on
habeas jurisdiction (i.e., the Court still has its power to
grant habeas relief, just not habeas injunctive relief).
But the Second and Third Circuits have held that the
clear statement rule applies even when a statute does
not bar all judicial review. Liu v. INS. 293 F.3d 36, 37
(2nd Cir. 2002)(clear statement still required even
where petitioner has other means—e.g., a petition for

62a
review—to raise the same issues); cf Chmakov v. Black­
man. 266 F.3d 210, 215 (3rd Cir. 2001). As the Govern­
ment has noted, there is Sixth Circuit precedent specif­
ically on this point:
[T]here is nothing in § 1252(f)(1) that suspends the
writ of habeas corpus. It is true that habeas is
barred as to injunctive relief for class actions, but
there is nothing barring a class from seeking a tradi­
tional writ of habeas corpus (which is distinct from
injunctive relief
Hamama v. Homan. 912 F.3d 869, 879 (6th Cir. 2018)
(emphasis in original). But this Court is not compelled
to follow the dictates of the Sixth Circuit (and, per the
remand in Rodriguez v. Marin, the Ninth Circuit still
considers the issue of classwide injunctive relief to be an
open question). There is nothing in St. Cvr and noth­
ing in applicable Ninth Circuit jurisprudence to indicate
that, absent a specific restriction, this Court is not au­
thorized to exercise the full panoply of its habeas pow­
ers, including its equitable powers to enjoin conduct
found unconstitutional. On that basis, § 1252(f)(1) does
not operate to bar the classwide injunctive relief sought
by Plaintiffs.
C.

§ 1252(e)(3)

The Government also challenges the Court’s jurisdic­
tion. 8 U.S.C. § 1252(e)(3) (“Challenges on Validity of
the System”) provides that
[jjudicial review of determinations under section
1225(b) . . . and its implementation is available in
an action instituted in the United States District
Court for the District of Columbia, but shall be lim­
ited to determinations of (i) whether such section, or

63a
any regulation issued to implement such section, is
constitutional.
The Government contends that Plaintiffs’ TAC rep­
resents the kind of “systemic challenge to the constitu­
tionality of 8 U.S.C. § 1225” which, pursuant to the man­
date above, may only properly be brought in the District
of Columbia. (Dkt. No. 114, Defendants’ Motion to Va­
cate at 17.)
This is not a persuasive position. Section 1252(e)(3)
is included as part of a statute that is addressed to “Ju­
dicial review of orders under section 235(b)(1)” (which in
turn is concerned with “Inspection of aliens arriving in
the United States and certain other aliens who have not
been admitted or paroled”). As such, § 1252(e)(3) is ad­
dressed to challenges to the removal process itself, not
to detentions attendant upon that process. The Court
is guided by the reasoning of the Supreme Court in Jen­
nings. which noted (in finding jurisdiction to consider
challenges to the detention process under §1225):
For present purposes, it is enough to note that re­
spondents are not asking for review of an order of re­
moval; they are not challenging the decision to detain
them in the first place or to seek removal; and they
are not even challenging any part of the process by
which their removability will be determined.
130 S. Ct. at 841. It is these types of claims to which
§ 1252(e)(3) is addressed; Plaintiffs’ challenge to the con­
stitutionality of their detention is not subject to the stric­
tures of that provision.
The Court’s decision in this regard is further but­
tressed by the complete absence of any mention of
§ 1252(e)(3) as a bar to jurisdiction in either Jennings or

64a
Rodriguez v. Marin. In a case involving plaintiffs chal­
lenging their detention under § 1225(b), neither the Gov­
ernment, the Supreme Court nor the Ninth Circuit saw
fit to raise § 1252(e)(3) as an impediment to considera­
tion of the merits of the claims. This Court will follow
suit and move on to a consideration of the merits of
Plaintiffs’ request to modify the present injunction in
this matter.
II. The Preliminary Injunction
Neither side disputes that the injunction previously
entered in this matter cannot remain in effect in its cur­
rent form. The Court retains an inherent authority to
modify an existing injunction on the basis of changed
circumstance (including a change in the law). Svs. Fed.
No. 91 v. Wright. 364 U.S. 642, 647 (1961). Defendants
argue that the modification requested here necessitates
a finding that this is a “mandatory” injunction—one
which “orders a responsible party to take action”
(Marlyn Nutraceuticals. Inc, v. Mucos Pharma GmbH &
Co.. 571 F.3d 873, 879 (9th Cir. 2009))—and thus is sub­
ject to a higher standard of proof. The Court disa­
grees. Even in its modified form, this remains a “pro­
hibitory” injunction, one intended to preserve the status
quo (which, at this point, is represented both by the orig­
inal preliminary injunction and by the 50 years preced­
ing this litigation during which EWI aliens have been
considered entitled to bond hearings to test the neces­
sity of their detention) and seeking only to “prevent[]
future constitutional violations.” Hernandez v. Ses­
sions. 872 F.3d 976, 998 (9th Cir. 2017).
The Court analyzes the request for modification us­
ing traditional elements that must be established prior
to the issuance of injunctive relief:

65a
1.

Likelihood of success on the merits

2.

Irreparable harm in the absence of the injunction

3.

A balance of equities which favors the moving
party

4.

The existence of a public interest which favors
the injunction

Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7, 20
(2008).

1.

Likelihood of success on the merits

Backed by the AG’s findings that § 1225(b) mandates
detention without bond for these Plaintiffs, the Govern­
ment cites to the jurisprudential maxim that “acts of
Congress enjoy a strong presumption of constitutional­
ity.” Schwenk v. Hartford. 204 F.3d 1187, 1204 (9th
Cir. 2000). Giving that maxim its due does not abro­
gate the Court’s authority under the habeas statute to
determine if these Plaintiffs are “in custody in violation
of the Constitution.” 28 U.S.C. § 2241(c)(3).
The Court previously utilized the Mathews balancing
test to determine Plaintiffs’ likelihood of success on
the merits and will do so again. The test examines and
weighs:
First, the private interest that will be affected by the
official action; second, the risk of an erroneous depri­
vation of such interest through the procedures used,
and the probable value, if any, of additional or substi­
tute procedural safeguards; and finally, the Govern­
ment’s interest, including the function involved and
the fiscal and administrative burdens that the addi­
tional or substitute procedural requirement would
entail.

66a
Mathews v. Eldridge. 424 U.S. 319, 335 (1976).
a. Private interest
The Supreme Court has definitively established the
immigrant detainees’ constitutionally-protected inter­
est in freedom from unnecessary incarceration. Zadvvdas v. Davis. 533 U.S. 678, 690 (2001). The Ninth Cir­
cuit has recognized that, in the area of non-criminal de­
tention of immigrants, “the private interest at issue here
is ‘fundamental’: freedom from imprisonment is at the
‘core of the liberty protected by the Due Process
Clause.’” Hernandez v. Sessions. 872 F.3d 976, 993
(9th Cir. 2017) (quoting Foucha v. Lousiana. 504 U.S. 71,
80 (1992)). The Ninth Circuit described the fundamen­
tal nature of that interest as “beyond dispute.” IcL
The Government attempts to argue that Plaintiffs
are essentially “excludable aliens,” entitled only to the
rights Congress sees fit to grant them. Shaughnessv
v. United States ex rel. Mezei. 345 U.S. 206, 212 (1982).
The Court has already found that these Plaintiffs are not
“excludable” aliens with no inherent due process rights;
nothing about the current posture of this case has al­
tered the validity of that analysis. (See Dkt. No. 110,
Order Granting Preliminary Injunction (“PI Order”) at
6.) Plaintiffs are “non-arriving aliens” who, having
been apprehended within the territorial boundaries of
this county, are entitled to due process protections.
United States v. Rava-Vaca. 771 F.3d 1995, 1202 (9th
Cir. 2014). Among those protections is a longstanding
prohibition against indefinite civil detention with no op­
portunity to test its necessity. The Ninth Circuit has
expressed “grave doubts that any statute that allows for
arbitrary prolonged detention without any process is

67a
constitutional.”
(9th Cir. 2018).

Rodriguez v. Marin. 909 F.3d 252,256.

The Government points to cases like Zadvvdas and
Demore v. Hyung Joon Kim (538 U.S. 510 (2003))—
which upheld the reasonableness of six-month detention
periods—to argue that Plaintiffs are not likely to suc­
ceed on their request for a seven-day timeline on bond
hearings. But the length of time until hearing is not
the issue currently before the Court2 as it considers
modification of the injunction already in place—the is­
sue in this motion is whether or not it is constitutional to
have no bond hearing at all.
Further, the Government’s cases are distinguishable
from the instant matter to the extent that longer periods
of detention were found appropriate. The aliens in
Zadvvdas were already adjudicated removable and
simply awaiting deportation, which is not the case with
Plaintiffs. Demore concerned a detention policy nar­
rowly tailored to a subset of noncitizens who had com­
mitted one of a specified list of crimes which made them
risks upon release; Plaintiffs here are subject to indefi­
nite detention without regard for their criminal history
or the fact that they have been adjudged credibly fearful
of returning to their homelands. The Demore Court
relied on a massive record of research and statistics
demonstrating that the targeted subset of aliens were
categorically risks of flight and dangers to the commu­
nity. 538 U.S. at 518-21. There is no similar evidence in
the instant case.

2 To the extent it is, the Court has already ruled.
at 13-14.

See PI Order

68a
The Court finds that Plaintiffs have established a
constitutionally-protected interest in their liberty, a
right to due process which includes a hearing before a
neutral decision maker to assess the necessity of their
detention, and a likelihood of success on the merits of
that issue.
Plaintiffs have also asserted a cause of action under
the Administrative Procedures Act (“APA”), alleging
that the AG’s decision in Matter of M-S represents a
revision to an existing regulation in violation of the “no­
tice and comment” requirement of the APA. 5 U.S.C.
§ 553(b)-(d). Plaintiffs’ legal theory is that the AG’s
finding that immigrants detained awaiting an asylum
determination are not entitled to bond hearings under
§ 1225(b) represents “rulemaking;” i.e., a change to an
existing rule or regulation. The APA requires, prior to
amending or repealing an existing rule, notice of the
proposed change in the Federal Register with a 30-day
period prior to implementation of the revision or with­
drawal and an opportunity for comment by interested
persons. RL The Court does not find a likelihood of
success on the merits of Plaintiffs’ APA claim as it re­
gards this issue.
The rules which Plaintiffs contend are being repealed
are 8 C.F.R. §§ 1236.1(d) and 1003.19(h)(2)(i). § 1236.1(d)
(“Appeals from custody decisions”) state:
(1) Application to immigration judge. After an ini­
tial custody determination by the district director, in­
cluding the setting of a bond, the respondent may, at
any time before an order under 8 CFR part 1240 be­
comes final, request amelioration of the conditions
under which he or she may be released. Prior to
such final order, and except as otherwise provided in

69a
this chapter, the immigration judge is authorized to
exercise the authority in section 236 of the Act . . .
to detain the alien in custody, release the alien, and
determine the amount of bond, if any, under which
the respondent may be released, as provided in
§ 1003.19 of this chapter.
(Emphasis supplied.) § 1003.19 is an adjunct regulation
to § 1236.1, covering “[cjustody and bond determina­
tions made by the service pursuant to 8 C.F.R. part
1236.”
These regulations concern the authority of immigra­
tion officials and judges under “section 236 of the Act,”
which is also known as § 1226 of the INA. Plaintiffs’
asylum applications are being processed (and they are
being detained) pursuant to section 235 (or § 1225) of the
Act, and the regulation which they allege is being re­
vised or repealed in violation of the APA is inapplicable
to them. Under these circumstances, the Court cannot
find that they have a likelihood of succeeding on the
merits of that particular claim.
b. Risk of deprivation/value of procedural safe­
guards
Quoting from the Court’s previous findings:
The Hernandez court, conducting a similar Mathews
analysis in the context of immigrant detention, de­
scribed the [risk of deprivation of a bond hearing] as
follows: “[T]here is a significant risk that the indi­
vidual will be needlessly deprived of the fundamental
right to liberty.” 872 F.3d at 993.
(Dkt. No. 110, PI Order at 12.)
valid today as it was then.

That risk remains as

70a
The “value of the procedural safeguard” of a bond
hearing is self-evident. To begin with, immigration de­
tention can be upheld only where “a special justification
. . . outweighs the ‘individuals’ constitutionally pro­
tected interest in avoiding physical restraint.’” Zadvvdas, 553 U.S. at 690 (quoting Kansas v. Hendricks. 521
U.S. 346, 356 (1997)); see also United States v. Salerno,
481 U.S. 739 747 (1987). The purposes of immigration
detention are simple and straightforward: to facilitate
removal (if removal is deemed justified), and to prevent
flight and harm to the community. IcL at 690-91; Her­
nandez, 872 F.3d at 990. Detention that does not serve
those legitimate ends violates due process; bond hear­
ings are the most efficacious mean of insuring those pur­
poses are being served.
c. The Government’s interest
To demonstrate their interest, Defendants cite their
commitment to “the efficient administration of the im­
migration laws at the border.” (Dkt. No. 139, Defend­
ants’ Response at 24.) The Court has already indicated
its disinclination to “exalt expense over fundamental
rights to liberty” (PI Order at 15), quoting the Ninth
Circuit in Hernandez:
[T]he government has no legitimate interest in de­
taining individuals who have been determined not to
be a danger to the community and whose appearance
at future immigration proceedings can be reasonably
ensured . . .
872 F.3d at 990.
The Court finds a private interest held by this class
that is being affected by governmental action, a substan-

71a
tial risk of its erroneous deprivation under the AG’s in­
terpretation of the INA, and probable value in according
Plaintiffs their right to a bond hearing, none of which
are outweighed by the Government’s interest in pro­
ceeding in accordance with the AG’s dictates. While
the same cannot be said for Plaintiffs’ APA claim, the
Court finds that the class has demonstrated a likelihood
of success on their constitutional challenge to the com­
plete elimination of bond hearings for its members.
2.

Irreparable harm

As the Court has previously found, “any deprivation
of constitutional rights ‘unquestionably constitutes ir­
reparable injury.’” Hernandez, id. at 995 (citation omit­
ted). All the harms attendant upon their prolonged de­
tention cited in the original ruling on Plaintiffs’ request
for injunctive relief remain applicable here—substand­
ard physical conditions, low standards of medical care,
lack of access to attorneys and evidence as Plaintiffs
prepare their cases, separation from their families, and
re-traumatization of a population already found to have
legitimate circumstances of victimization.
Finally, there is the incalculable harm to those class
members who, facing an uncertain length of time in
custody and an arduous and obstacle-strewn road to
establishing . . . [jtheir right to asylum[], simply
abandon their claim and accept deportation back to
countries where, as it has already been established to
the Government’s satisfaction, they face persecution,
torture, and possibly death.
PI Order at 17.
The Government’s arguments to the contrary lack
substance. Defendants cite to the “speculative” nature

72a
of any possible harm cited by the named Plaintiffs—
even if that were true (see the Court’s findings supra
regarding the Government’s “at this time ... ” dec­
laration), Plaintiffs Orantes and Vasquez represent a
class of persons who are currently in custody and for
whom detention without bond is not a theoretical con­
cept. Defendants again cite to the bond hearing class’s
access to individual habeas petitions to challenge their
detention—the Court has already commented on the
“grim irony” of the members of this class being forced
to endure further delays while they contest the consti­
tutionality of their detention.
The Court finds that Plaintiffs have succeeded in
demonstrating “irreparable harm” in the absence of in­
junctive relief.
3.

Equities/public interest

When the Government is a party to the case, the pub­
lic interest and balance of equities factors “merge.”
Drakes Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092
(9th Cir. 2014). The equities favoring Plaintiffs continue
to be: The deprivation of their constitutional rights, the
physical/emotional/psychological damage engendered by
their indefinite detention, the separation from their fam­
ilies, and the negative impact on their ability to properly
prepare their cases.
On its side, the Government cites “the efficient ad­
ministration of the immigration laws,” which has been
addressed supra. The words of the Ninth Circuit in
Hernandez continue to ring true:

73a
“Faced with such a conflict between financial con­
cerns and preventable human suffering, we have lit­
tle difficulty concluding that the balance of hardships
tips decidedly in plaintiffs’ favor.”
872 F.3d at 996 (quoting Lopez v. Heckler. 713 F.2d
1432,1437 (9th Cir. 1983)).
Defendants also caution the Court against creating a
“Jennings subset”—what they characterize as an “ex­
ception” to the Jennings holding that detention is statu­
torily required under § 1225. But Jennings made no
finding regarding the constitutionality of § 1225 and the
case does not stand for the proposition that indefinite
mandatory detention while awaiting determination of an
asylum application is constitutionally permissible. The
Court sees nothing in the Supreme Court’s ruling in
Jennings that favors the Government’s position in this
litigation.
The Ninth Circuit has previously found that “it is al­
ways in the public interest to prevent the violation of a
party’s constitutional rights.” Melendres v. Arpaio.
695 F.3d 990,1002 (9th Cir. 2012). The Court finds that
the balance of equities and the public interest favor
granting injunctive relief to Plaintiffs.
Conclusion
The Plaintiffs of the Bond Hearing Class have suc­
ceeded in establishing all the requisite elements for
granting their request for modified injunctive relief: a
change in circumstances, a continuing likelihood of suc­
cess on the merits on at least one of their claims, irrep­
arable harm if their relief is not granted, a balance of

74a
equities in their favor, and a benefit to the public inter­
est if granted the relief they seek. Accordingly, the
Court GRANTS the requested relief.
Anticipating that an appeal will swiftly follow the
publication of this order, the Court divides the modified
injunction into two parts to facilitate appellate review:
PART A: Affirming its previously-entered injunc­
tive relief requiring Defendant Executive Office for Im­
migration Review to:
1.

Conduct bond hearings within seven days of a
bond hearing request by a class member, and re­
lease any class member whose detention time ex­
ceeds that limit;

2.

Place the burden of proof on Defendant Depart­
ment of Homeland Security in those bond hear­
ings to demonstrate why the class member should
not be released on bond, parole, or other condi­
tions;

3.

Record the bond hearing and produce the re­
cording or verbatim transcript of the hearing
upon appeal; and

4.

Produce a written decision with particularized
determinations of individualized findings at the
conclusion of the bond hearing.

PART B: Modifying the injunction to find that the
statutory prohibition at Immigration and Nationality
Act § 235(b)(l)(B)(ii) against releasing on bond persons
found to have a credible fear and awaiting a determina­
tion of their asylum application violates the U.S. Consti­
tution; the Bond Hearing Class is constitutionally enti­
tled to a bond hearing before a neutral decisionmaker

75a
(under the conditions enumerated above) pending reso­
lution of their asylum applications.
The preliminary injunction, as modified, will enter
into effect 14 days from the date of this order.
The clerk is ordered to provide copies of this order to
all counsel.
Dated:

July 2, 2019
MARSHA J. PECHMAN
Marsha J. Pechman
United States Senior District Judge

76a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
Case No. C18-928 MJP
Yolany Padilla, et al., plaintiffs
v.
US Immigration and Customs Enforcement,
ETAL., DEFENDANTS

Filed:

Apr. 5, 2019

ORDER GRANTING PRELIMINARY INJUNCTION
The above-entitled Court, having received and re­
viewed:
1.

Plaintiffs’ Motion for Preliminary Injunction
(Dkt. No. 45),

2.

Defendants’ Opposition to Plaintiffs’ Motion for
Preliminary Injunction (Dkt. No. 82),

3.

Plaintiffs’ Reply in Support of Motion for Pre­
liminary Injunction (Dkt. No. 85), all attached
declarations and exhibits, and relevant portions
of the record, and having heard oral argument
thereon, rules as follows:

77a
IT IS ORDERED that the motion is GRANTED.
With regard to the Bond Hearing Class, Defendant Ex­
ecutive Office for Immigration Review must, within 30
days of this Order:
1.

Conduct bond hearings within seven days of a
bond hearing request by a class member, and re­
lease any class member whose detention time ex­
ceeds that limit;

2.

Place the burden of proof on Defendant Depart­
ment of Homeland Security in those bond hear­
ings to demonstrate why the class member should
not be released on bond, parole, or other condi­
tions;

3.

Record the bond hearing and produce the re­
cording or verbatim transcript of the hearing upon
appeal; and

4.

Produce a written decision with particularized
determinations of individualized findings at the
conclusion of the bond hearing.
Background

Under the Immigration and Nationality Act (“INA”),
detained asylum seekers who are determined by De­
fendant U.S. Immigration and Customs Enforcement
(“ICE”) to have a credible fear of persecution are enti­
tled to request release from custody during the pen­
dency of the asylum process. See Matter of X-K. 23 I.
& N. Dec. 731 (BIA 2005). The initial decision of whether
the detainees may be released is made by Defendant De­
partment of Homeland Security (“DHS”) (see 8 C.F.R.
§ 236.1(c)(8)), and the asylum seekers may request re­
view of the DHS determination before an immigration

78a
judge (“IJ”) by means of a bond hearing.
§ 1226(a); 8 C.F.R. § 1003.19(a).

See 8 U.S.C.

The agencies’ own guidelines and regulations reflect
a recognition of the significance of the deprivation of lib­
erty and the need for expeditious processing of these re­
quests. See, e.g., 8 C.F.R. § 1003.47(k) (referring to
“the expedited nature” of initial custody redetermina­
tion cases); 52 Fed. Reg. 2931, 2932 (Aliens and Nation­
ality; Rules of Procedure Before Immigration Judges:
Jan. 29, 1987) (emphasizing the need for procedures at
that time to “maximize the prompt availability of Immi­
gration Judges for respondents applying for bond deter­
minations”); Immigration Court Practice Manual
§ 9.3(d)(2016) (“In general, after receiving a request for
a bond hearing, the Immigration Court schedules the
hearing for the earliest possible date . . . ”). The
DHS regulations allow for bond hearings even prior
to the agency filing immigration charges. 8 C.F.R.
§ 1003.14(a). The critical nature of the interest at stake
is reflected in an underlying theme calling for hearings
of this nature to be held as expeditiously as possible.
Despite this mandate, Plaintiffs have submitted a
plethora of declarations reflecting a practice by Defend­
ant Executive Office for Immigration Review (“EOIR”)
of delaying bond hearings for members of this class for
weeks, even months, following a hearing request. (See
Dkt. No. 37 at 14, Motion for Class Certification; Dkt.
No. 46, Deck of Antonini at 11 5; Dkt. No. 47, Deck of
Beckett at 11 5; Dkt. No. 48, Deck of Byers at 11 5; Dkt.
No. 50, Deck of Inlender at 1111 12-13; Dkt. No. 51, Deck
of Jong at UH 3-4; Dkt. No. 52, Deck of Koh at 1114; Dkt.
53, Deck of Levy at U 6; Dkt. No. 54, Deck of Love at
T11 4-5; Dkt. No. 55, Deck of Lunn at H 5; Dkt. No. 56,

79a
Decl. of Mercado at If 10; Dkt. No. 57, Decl. of Orantes
at If 13; Dkt. No. 58, Decl. of Shulruff at 11 4; Dkt. No. 60,
Decl. of Yang at 1f1f 5-6.
Members of the Bond Hearing class face other obsta­
cles to securing their freedom. At the bond hearing,
the IJ bases his or her decision on an evaluation of
whether the asylum seeker poses a danger to the com­
munity and is likely to appear at future proceedings.
8 C.F.R. §§ 1236.1(d)(1), 1003.19; Matter of Adeniii. 22
I. & N. 1102, 1112 (BIA 1999). Unique among civil de­
tention hearings, however, EOIR places the burden of
establishing these factors on the detainees instead of the
government. Matter of Guerra. 24 I. & N. Dec. 37, 40
(BIA 2006).
An asylum seeker denied bond can appeal the I J’s de­
cision to the Board of Immigration Appeals (“BIA”) or
seek another bond hearing in front of the IJ based on a
material change in circumstances. 8 C.F.R. §§ 1003.19(e),
(f). But the potential appellant must make the decision
of whether to appeal without the aid of a record of the
initial bond proceeding or a written decision detailing
the reasons for the ruling. There is no requirement
that immigration courts record their proceedings or
provide a transcript thereof, and the IJs do not release
a written decision unless an administrative appeal of the
bond decision has already been filed. See. e.g„ Immi­
gration Court Practice Manual §§ 9.3(e)(iii), e(vii); BIA
Practice Manual §§ 4.2(f)(ii), 7.3(b)(ii).
In addition to the deprivation of liberty, detainees
face a number of other hardships attendant upon their
incarceration: separation from their families, substand­
ard conditions, subpar medical and/or mental health care,
and decreased access to legal assistance and the other

80a
resources required to pursue their goal of asylum (lead­
ing to a decreased likelihood of success). See, e.g., In­
grid Eagly & Stephen Shatter, Am. Imm. Council, Ac­
cess to Counsel in Immigration Court (2016), https://
tinyurl.com/v7hbl2rm: Dkt., Decl. of Lunn at 11 7; Dkt.
No. 49, Decl. of Cooper at HH 3-14, 17-20. The stakes
are high, and the obstacles to success can loom even
higher.
Discussion
The elements to be established prior to the issuance
of injunctive relief are well-known:
1.

Likelihood of success on the merits

2.

Irreparable harm in the absence of the injunc­
tion

3.

A balance of equities which favors the moving
party

4.

The existence of a public interest which favors
the injunction

Winter v. Natural Res. Def. Council. Inc.. 555 U.S. 7, 20
(2008).

Here in the Ninth Circuit a “sliding scale” approach
to this analysis is utilized—if the balance of hardships
tips sharply in favor of the moving party, that party is
only required to demonstrate claims that raise serious
legal questions, as well as meet the other two criteria.
See, e.g., Alliance for the Wild Rockies v. Cottrell,
632 F.3d 1127,1131-35 (9th Cir. 2011).

81a
1. Likelihood of success on the merits
Prior to addressing the substantive merits of the
claims of the Bond Hearing Class, the Court turns
briefly to the Defendants’ argument that these Plaintiffs
have no standing to bring this motion because they have
no cognizable injury; i.e., they are no longer being de­
tained and have been given bond hearings. The Court
has previously addressed the recognized right of these
class representatives to prosecute “inherently transi­
tory” claims (claims which by their nature may expire
for any one individual during the course of the litigation)
for those remaining members of the class who are still
being injured by the policy or practice. See Sosna v.
Iowa. 419 U.S. 393, 402 (1975); (Dkt. No. 102, Order Cer­
tifying Class at 8.)
Further, there is ample precedent for the granting of
injunctive relief on behalf of a class at the behest of class
representatives who were not suffering the complainedof injury at the time of the request. See Hernandez v.
Sessions. 872 F.3d 976, 986 (9th Cir. 2017) (injunction
granted concerning certain bond determination prac­
tices although Plaintiffs were no longer in custody); Ms.
L. v. ICE. 310 F. Supp. 3d 1133,1146-47 (S.D. Cal. 2018)
(enjoining immigrant family separation even though
Plaintiffs were already reunited with their children);
R.I.L-R v. Johnson. 80 F. Supp. 3d 164, 191 (D.D.C.
2015) (enjoining a detention policy at the request of
Plaintiffs who had been previously released).
Turning to the likelihood of success on the merits, the
parties are in agreement that these issues should be an­
alyzed using the balancing test enunciated in Mathews
v. Eldridge. 424 U.S. 319, 335 (1976), which calls for the
court to weigh:

82a
First, the private interest that will be affected by the
official action; second, the risk of an erroneous depri­
vation of such interest through the procedures used,
and the probable value, if any, of additional or substi­
tute procedural safeguards; and finally, the Govern­
ment’s interest, including the function involved and
the fiscal and administrative burdens that the addi­
tional or substitute procedural requirement would
entail.
A.

Private interest

It has long been recognized that immigration detain­
ees have a constitutionally-protected interest in their
freedom. Zadvvdas v. Davis. 533 U.S. 678, 690 (2001).
The Ninth Circuit has recognized that, in the area of
non-criminal detention of immigrants, “the private in­
terest at issue here is ‘fundamental’: freedom from im­
prisonment is at the ‘core of the liberty protected by the
Due Process Clause.’” Hernandez v. Sessions. 872
F.3d 976, 993 (9th Cir. 2017) (quoting Foucha v. Lousiana. 504 U.S. 71, 80 (1992)). The Ninth Circuit de­
scribed the fundamental nature of that interest as “be­
yond dispute.” IcL
The extent of those due process rights is among the
many issues hotly-contested by these parties. Defend­
ants ask the Court to find that these Plaintiffs are no
different from any other immigrants who present them­
selves at an official Point of Entry (POE) and request
admission to this country, a class of “excludable aliens”
which has been found to have no inherent due process
rights. See Shaughnessv v. United States ex rel. Mezei, 345 U.S. 206, 212 (1953).

83a
Again, the Court cites its earlier Order on Motion to
Dismiss for a previous ruling that, because these Plain­
tiffs (and the class they represent) were already within
the territorial borders of the U.S. when they were de­
tained, they are not considered on a similar footing to
“excludable” aliens. (See Dkt. No. 91, Order on Motion
to Dismiss at 8-10.) “[0]nce an individual has entered
the country, he is entitled to the protection of the Due
Process Clause.” United States v. Rava-Vaca. 771
F.3d 1995, 1202 (9th Cir. 2014) (emphasis in original)1;
see also Zadvydas. 553 U.S. at 693. The Court finds
that this class of plaintiffs has a considerable private in­
terest at stake: A constitutional right to press their
due process claims, including their right to be free from
indeterminate civil detention, and their right to have the
bond hearings conducted in conformity with due pro­
cess.
Defendants also argue that Jennings v. Rodriguez,
138 S. Ct. 830 (2018) (the Supreme Court case cited by
this Court in initially finding jurisdiction over this law­
suit; (Dkt. No. 91, Order on Motion to Dismiss at 6-7))
“concluded that the statute bars such aliens from being
afforded a bond hearing during the pendency of their re­
moval proceedings.” (Dkt. No. 82, Response at 10 (cit­
ing 138 S. Ct. at 845.)) This is an oversimplified and
inaccurate reading of that portion of the ruling, which
concerns 8 U.S.C. § 1225(b)(1), and quotes its language
1 Defendants’ argument that Rava-Vacais “strictly limited” to
criminal defendants is not supported by the opinion. The “criminal
case limitation” is applicable only to attacks on removal orders which
are not at issue here. There is no restriction on the Ninth Circuit’s
holding regarding the due process rights of aliens apprehended within
the borders of the U.S.

84a
that “[a]ny alien . . . shall be detained pending a fi­
nal determination of credible fear of persecution and, if
found not to have such a fear, until removed.” Jen­
nings. 138 S. Ct. at 845 (emphasis supplied). The mem­
bers of the Bond Hearing Class have been found “to
have such a fear” and that finding removes them from
the detention requirements referenced in Jennings.
The Court further finds that the fundamental liberty
interest implicated by the Bond Hearing Class’s pro­
longed and indeterminate detention extends to the pro­
cedural remedies which they are seeking as well:
Being forced to bear the burden of proof and being de­
nied both some form of automatic verbatim record and
timely written findings—impacting both the likelihood
of release and the ability to effectively appeal adverse
determinations—can all be seen as potential threats to
the class members’ liberty.
Defendants reiterate the “harmless error” argument
from their earlier dismissal motion, asserting that PrietoRomero v. Clark. 534 F.3d 1053 (9th Cir. 2008) sets a
standard requiring that the Plaintiffs demonstrate that
the “alleged due process violations adversely affected
the IJ’s determination that [Plaintiff] was eligible for
bond.” IcL at 1066. Defendants argue that the class
representatives fail under the harmless error standard
because none of them are in custody and, further, that
the putative class members’ proof fails because they
have not yet had their hearings. The Court is not per­
suaded, and is mindful that, in the case of both of the
named representatives of the Bond Hearing Class, it
was proactive intervention by the government that elim­
inated the need for an appeal of an adverse determina­
tion at the bond hearing. (See Dkt. No. 26, Second

85a
Amended Complaint, HH 121,123; Dkt. No. 61,1110.) In
Pitts v. Terrible Herbst, Inc.. 653 F.3d 1081 (9th Cir.
2011), Defendant attempted to “moot” Plaintiff’s claim
during the pendency of the lawsuit by making him an
offer of judgment. The Ninth Circuit ruled that such a
strategy could not defeat an otherwise valid class action:
“[T]he termination of a class representative’s claim does
not moot the class claims.” Id, at 1089.
Regarding the putative class members, there is Ninth
Circuit authority that there are circumstances where, if
the injury is imminent, prior or present harm need not
be shown. In Amer. Trucking Assoc’s v. City of Los
Angeles. 559 F.3d 1046 (9th Cir. 2009), the court noted
that enforcing a requirement of proven past harm would
put the plaintiffs to a “Hobson’s choice”—refuse to
abide by the challenged regulation and lose the right to
do business, or submit to the regulation and be driven
out of business by the cost of compliance. Under those
circumstances, the Ninth Circuit found that “the consti­
tutional violation alone, coupled with the damages in­
curred, can suffice to show irreparable harm.” Id at
1058. See also Hernandez. 872 F.3d at 994 (“It is wellestablished that the deprivation of constitutional rights
‘unquestionably constitutes irreparable injury.’”) (cita­
tions omitted).
Plaintiffs here are faced with a similar choice - accept
their indeterminate detention and receive bond hear­
ings at the Government’s pleasure with a reversed and
inequitable burden of proof and procedural deficiencies
which impact their ability to appeal an adverse determi­
nation or (as the Defendants have suggested) give up
their asylum claim and allow themselves to be deported
back to a homeland where they have already been found

86a
to have a credible fear of injury or death. The Consti­
tution does not require these Plaintiffs to endure such a
no-win scenario.
Defendants also claim that Plaintiffs are not entitled
to relief because they have not exhausted their adminis­
trative rights. The exhaustion requirement is “pru­
dential, rather than jurisdictional,” and it is within the
discretion of a district court to
waive the prudential exhaustion requirement if “ad­
ministrative remedies are inadequate or not effica­
cious, pursuit of administrative remedies would be a
futile gesture, irreparable injury will result, or the
administrative proceedings would be void.”
Hernandez. 872 F.3d at 987 (citation omitted). As
has already been observed, “[i]t is well-established that
the deprivation of constitutional rights ‘unquestionably
constitutes irreparable injury.’” Hernandez. 872 F.3d
at 994 (citations omitted). Furthermore, Plaintiffs’ ev­
idence demonstrates that, Defendants having shown no
inclination to modify any of their policies, the adminis­
trative remedy is “inadequate.” Indeed, the thrust of
that evidence (regarding the lack of either an automatic
verbatim record or mandatory written findings at the
time of ruling) is that the current practices negatively
impact their ability to effectively appeal and it would be
futile to continue to pursue the administrative remedy
in the face of Defendants’ ongoing refusal to alter the
procedural framework.
In attempting to argue that Plaintiffs have no consti­
tutional right to a verbatim record or automatic written
findings, Defendants again turn to the argument that
there is not even a guaranteed right to verbatim record

87a
in criminal proceedings. This argument was addressed
—and rejected—in the Court’s Order on Motion to Dis­
miss:
The government goes on to claim that, because “[t]he
Supreme Court has declined to impose a contempo­
raneous verbatim record requirement on criminal
trials,” the Court should not do so in immigration cus­
tody redetermination hearings. (Dkt. No. 36 at 18
(emphasis in original).) The problem with this ar­
gument is that every case cited in support of this
proposition says the opposite: that indigent defend­
ants must be provided with “a record of sufficient
completeness” (Coppedge v. United States. 369 U.S.
438, 446 (1962) for an appeal or “a complete tran­
script of the proceedings at trial.” United States v.
Carrillo. 902 F.2d 1405, 1409 (9th Cir. 1990).
(Dkt. 91 at 15, n.3.)
Defendants also assert that, because there are “less
intrusive ways for the Board to ensure detainees have
notice of the basis for their bond decisions,” Plaintiffs’
interests should not be elevated over the adverse impact
on the Government’s interest. (Dkt. No. 82, Response
at 19.) The example of a “less intrusive way” which De­
fendants cite is a case which remanded a bond decision
to the IJ for a more thorough bond decision. In re:
Fernando Antonio Garro-Roias. 2007 WL 1430371, at *1
(BIA Mar. 23, 2007). But it is the prolongation of Plain­
tiffs’ detention that is at the heart of the interest which
they seek to protect. Defendants do not have a right to
a “less intrusive” solution that continues to undermine
the fundamental interest at stake here.

88a
As an example of the nature of their interest in the
issuance of written findings before their appeal is filed,
Plaintiffs cite to 8 C.F.R. § 1003.3(b) (which mandates
dismissal of a Notice of Appeal which is insufficiently
detailed), as well as Matter of Keyte, 201. & N. Dec. 158,
159 (BIA 1990), wherein a notice of appeal was summar­
ily dismissed for “offering] only a generalized state­
ment of [the] reason for the appeal.” Written findings
issued after the notice of appeal is filed are of little ben­
efit to this class. Additionally, written findings, often
composed weeks after the hearing itself,2 may overlook
key facts and findings, and may be subject to bias in fa­
vor of the adverse ruling. See Bergerco. U.S.A, v.
Shipping Corn, of India. Ltd., 896 F.2d 1210, 1214 (9th
Cir. 1990) (“[0]nce the court has entered judgment, it
may become subject to the very natural weight of its
conviction, tending to focus on that which supports its
holding.”)
Regarding Plaintiffs’ interest in shifting the burden
of proof at the bond hearings, Defendants again wrongly
cite Jennings for their argument that Plaintiffs must
continue to bear the burden of proof. (Response at 18.)
The Supreme Court in Jennings declined to address the
constitutional arguments on their merits, instead re­
manding them to the appellate court for that purpose.
138 S. Ct. at 851. In every other context (both civil and
criminal detention), the Government bears the burden
of proof regarding suitability for release (with the cor­
responding presumption in favor of release)—the Su­
preme Court has upheld that allocation of the burden
where it was found (see United States v. Salerno. 481
'2 See Dkt. No. 49, Decl. of Cooper at 11 16; Dkt. No. 51, Deck of
Jong at H 10.

89a
U.S. 739, 751 (1987); Kansas v. Hendricks 521 U.S. 346,
353 (1997)), and struck it down where it was not (see
Foucha v. Lousiana, 504 U.S. 71, 81 (1992); Addington v.
Texas. 441 U.S. 418, 427 (“The individual should not be
asked to share equally with society the risk of error
when the possible injury to the individual is significantly
greater than any possible harm to the state.”); and
Zadwdas, 533 U.S. at 692 (striking down a regulation
which required immigrant detainees to prove they were
not dangerous)).3
The Court finds that Plaintiffs have succeeded in es­
tablishing the existence of the private interests (shared
by the class) that are being impacted by the government
action.
B.

Risk of deprivation/value of procedural safe­
guards

The risk of deprivation occasioned by the indetermi­
nate prolonged civil detention of this class seems almost
too obvious to state. The Court’s Order on Motion to
Dismiss quoted the Ninth Circuit in Rodriguez v. Marin.
909 F.3d 252, 256 (9th Cir. 2018):
We have grave doubts that any statute that allows for
arbitrary prolonged detention without any process is
constitutional or that those who founded our democ­
racy precisely to protect against the government’s
arbitrary deprivation of liberty would have thought
3 Further support can be found in an S.D.N.Y. case, Martinez v.
Decker. 2018 U.S. Dist. LEXIS 178577 at *13 (S.D.N.Y., October 17,
2018): “Thus, in accordance with every court to have decided this is­
sue, the Court concludes that due process requires the Government to
bear the burden of proving that detention is justified at a bond hear­
ing under Section 1226(a).”

90a
so. Arbitrary civil detention is not a feature of our
American government.
The Hernandez court, conducting a similar Mathews
analysis in the context of immigrant detention, de­
scribed the second factor as follows: “[T]here is a sig­
nificant risk that the individual will be needlessly de­
prived of the fundamental right to liberty.” 872 F.3d
at 993. That Defendants’ procedures here occasion the
deprivation of such a fundamental right suffices as an
adequate description of “the risk of an erroneous depri­
vation of such interest through the procedures used,” in­
cluding the absence of any deadline for conducting the
bond hearing once requested and placing the burden on
the detainee to establish grounds for release. Addi­
tionally, the failure to supply a verbatim record of the
hearing or a contemporaneous set of written findings
jeopardizes the class members’ ability to effectively ap­
peal an adverse decision—a further incursion upon their
constitutionally-protected liberty interest.
Having identified the risk, the Court moves on to ex­
amine “the probable value, if any, of additional or sub­
stitute procedural safeguards.” Mathews. 424 U.S. at
335. In establishing by this injunction the requirement
that Defendant EOIR hold a bond hearing for class
members within seven days of their request, the Court
is informed, first, by its previous findings of “a plethora
of district court and Board of Immigration Appeals
cases affirm[ing] the requirement of a ‘prompt’ or ‘expe­
ditious’ bond hearing for immigrants seeking entry.”
(See Dkt. No. 91, Order on Motion to Dismiss at 13-14.)
Further guidance is found in the Congressional mandate
that, in the statutory scheme by which asylum determi­
nations are made, Defendants are required to review

91a
credible fear determinations “as expeditiously as possi­
ble,” a phrase which is defined as requiring review “to
the maximum extent practicable within 24 hours, but in
no case later than 7 days.” 8 U.S.C. § 1225(b)( 1)(B)(111)(iii);
see also 8 C.F.R. §§ 287.3(d), 1003.42(e).
Elsewhere in the civil commitment context, there is a
long history of courts which have found that due process
requires an expeditious hearing, often defined as a pe­
riod of no longer than seven days. See, e.g.. Doe v. Gallinot. 657 F.2d 1017 (9th Cir. 1982) (affirming a ruling
which required a probable cause hearing for an involun­
tary mental health commitment after 72 hours, “but in
no event . . . later than the seventh day of confine­
ment;” Id. at 10254); Saraviav. Sessions. 280 F. Supp. 3d
1168 (N.D. Cal. 2017) (finding, using a Mathews balanc­
ing test, that the due process clause required, for minors
re-arrested by DHS, “the opportunity to be heard ‘at a
meaningful time,’” and fixed that period at no later than
seven days following the re-arrest; Id at 1197); Nguti v.
Sessions. 259 F. Supp. 3d 6 (W.D.N.Y. 2017) (requiring
an immigrant detainee’s bond hearing to be held within
one week of the order; Id at 14). The Court finds that
a timeline of seven days from the date of the bond hear­
ing request is consistent with both Congressional intent
and judicial precedent and represents a procedural safe­
guard providing the value of an opportunity to be heard
at a meaningful time regarding this fundamental inter­
est possessed by the class members.

4 The Ninth Circuit further found in Gallinot that “the seven-day
limit represents a responsible balance of the competing interests
involved.” Id. at 1025.

92a
The probable value of the other safeguards (the bur­
den of proof borne by the government, an automatic con­
temporaneous recording of the proceedings, and written
findings at the time of decision) required by this injunc­
tion has been mentioned supra and may be summarized
as: (1) the burden of proof being borne by the party
which has traditionally been responsible for it and which
has the greater resources to elicit the necessary facts;
and (2) the provision to these class members of a mean­
ingful opportunity to decide whether to appeal an ad­
verse determination and to prepare a sufficiently de­
tailed notice of appeal that the process may go forward
with a complete representation of their position. Gen­
erally speaking, the “probable value, if any, of additional
or substitute procedural safeguards” is the increased
likelihood that Plaintiffs will be deprived of their funda­
mental liberty interest only where absolutely necessary,
and for no longer than necessary.
C.

The Government’s interest

“The government has legitimate interests in protect­
ing the public and in ensuring that non-citizens in re­
moval proceedings appear for hearings.
...
”
Hernandez, supra at 990. The Defendants present
their interests primarily in terms of the burden on their
resources that implementing additional procedural safe­
guards (and a mandated timeline) will impose; i.e., “avail­
able resources and docketing realities.” (Response at
12.) While those concerns are certainly within the scope
of a Mathews balancing test (this third factor is de­
scribed as “the Government’s interest, including the
function involved and the fiscal and administrative bur­
dens that the additional or substitute procedural re-

93a
quirement would entail”), the Court will not exalt ex­
pense over fundamental rights to liberty. As the Ninth
Circuit has stated,
[T]he government has no legitimate interest in de­
taining individuals who have been determined not to
be a danger to the community and whose appearance
at future immigration proceedings can be reasonably
ensured. . . .
Hernandez, supra at 994.
The Court finds that the Mathews balancing test fa­
vors the Plaintiffs’ position in terms of a finding of “like­
lihood of success on the merits”—Plaintiffs have estab­
lished the existence of a fundamental liberty interest,
the risk of erroneous deprivation of that interest, and the
value of additional procedural safeguards. The Govern­
ment interest, while hardly nonexistent, is not sufficient
to outweigh the other factors.
2. Irreyarable harm
The Court finds that Plaintiffs have provided solid
evidentiary and jurisprudential proof of the multiple
layers of irreparable injury occasioned by Defendants’
policies and practices. The Court’s analysis begins by
noting again that the courts of the United States recog­
nize that “any deprivation of constitutional rights ‘un­
questionably constitutes irreparable injury.’” Her­
nandez. supra at 995 (citation omitted).
Next, the analysis turns to the more concrete types
of harm inflicted by prolonged detention, including
physical and psychological trauma (e.g., malnutrition,
poor medical care, depression; see declarations of Plain­
tiffs and counsel at Dkt. Nos. 46, 48, 51, 54-58). Plain­
tiffs attach to their opening brief a series of declarations

94a
establishing the spectrum of harms attendant upon pro­
longed detention (including panic attacks, depression,
and exacerbation of pre-existing trauma), (see Open­
ing Brief at 23.) Additionally, the Ninth Circuit has
cited with approval an amicus brief from the American
Bar Association in Hernandez which
describes evidence of subpar medical and psychiatric
care in ICE detention facilities, the economic bur­
dens imposed on detainees and their families as a re­
sult of detention, and the collateral harms to children
of detainees whose parents are detained.
872 F.3d at 994.
Secondarily, prolonged indefinite detention negatively
impacts detainees who are required to bear the burden
of proof of their eligibility for release. Detention poses
“serious obstacles in demonstrating eligibility for re­
lease at a bond hearing, including impediments to gath­
ering evidence, communicating with potential witnesses
or attorneys ... or accessing documents that immi­
gration officials have confiscated.” (Opening Brief at
24; see declarations of immigration counsel at Dkt. Nos.
46-52, 54, 59.)
Furthermore, there is the impact of the procedural
deficiencies alleged by Plaintiffs on their ability to effec­
tively appeal any adverse determinations. If the de­
tainee does not know the grounds on which the bond re­
quest was denied, how is the detainee—or the detainee’s
counsel—supposed to know whether an appeal would be
well-taken? As one counsel declared: “It is near im­
possible to advise a client on his or her chances of appeal
if I have little to no idea of what the [I J]’s reasoning was
for denying bond in the first place.” (Dkt. No. 51, Decl.

95a
of Jong at 1111; see also Dkt. No. 50, Decl. of Inlender at
11 15 (“Once an appeal is filed, the lack of a transcript
means that there is no verifiable way to relay what hap­
pened before the immigration judge and, in some cases,
to articulate specific errors requiring reversal.”).)
Finally, there is the incalculable harm to those class
members who, facing an uncertain length of time in cus­
tody and an arduous and obstacle-strewn road to estab­
lishing their right to release (to say nothing of their
right to asylum), simply abandon their claim and accept
deportation back to countries where, as it has already
been established to the Government’s satisfaction, they
face persecution, torture, and possibly death. (See
Dkt. Nos. 46-47, 50-53, 55, 57-60.)
Defendants’ arguments to the contrary are not per­
suasive. They claim that there are no allegations of
prolonged detention awaiting a bond hearing, but Plain­
tiffs’ declaratory evidence is replete with assertions of
waiting times of weeks and months prior to a bond hear­
ing. (E.g., Dkt. Nos. 46, 47, 57, 61.) They argue that
claims of prolonged detention “could be addressed in the
ordinary course of habeas litigation when they are ripe”
(Response at 24)—apparently entirely missing the grim
irony of Plaintiffs being forced to undergo a further de­
lay in detention for an entirely separate legal proceed­
ing. Even in the face of over a dozen declarations doc­
umenting excessive delays and its effects on the class
members, Defendants insist that the injuries are “spec­
ulative,” lacking any proof that they are “likely.”
Plaintiffs have succeeded in establishing irreparable
harm from the complained-of practices.

96a
3. Balance of equities/Public interest
When the Government is a party to the case, the pub­
lic interest and balance of equities factors “merge.”
Drakes Bay Oyster Co. v. Jewell. 747 F.3d 1073, 1092
(9th Cir. 2014). The equities on Plaintiffs’ side consist
of the deprivation of a fundamental constitutional right,
with accompanying harms that range from physical,
emotional and psychological damage to unnecessarily
prolonged separation from their families to denial of due
process. The equities on Defendants’ side are primar­
ily concerned with the agencies’ right to control their
dockets and to allocate what are unquestionably limited
resources as they see fit. This is not a close call. As
the Hernandez court stated:
“Faced with such a conflict between financial con­
cerns and preventable human suffering, we have lit­
tle difficulty concluding that the balance of hardships
tips decidedly in plaintiffs’ favor.”
872 F.3d at 996 (quoting Lopez v. Heckler. 713 F.2d
1432, 1437 (9th Cir. 1983).
In considering the public interest factor in the injunc­
tive equation, the Hernandez court found the following
“public interest” factors favored plaintiffs; the Court
finds them applicable here:
1.

“[EJnsuring the government’s bond determina­
tion procedures comply with the Constitution.”

2.

“In addition to potential hardships facing Plain­
tiffs, the court ‘may consider . . . the indi­
rect hardship to their friends and family mem­
(quoting Golden Gate Rest. Ass’n v.
bers.
City & County of San Francisco. 512 F.3d 1112,
1126 (9th Cir. 2008)).
f f>

97a
3.

“[T]he general public’s interest in the efficient
allocation of the government’s fiscal resources”
(citing the $158 a day cost to confine each de­
tainee, with a total daily cost of $6.5 million [in
2017], compared to a maximum cost of $17 a day
for supervised release).

Id.
Additionally, there is Ninth Circuit precedent for the
principle that “it is always in the public interest to pre­
vent the violation of a party’s constitutional rights.”
Melendres v. Arpaio. 695 F.3d 990, 102 (9th Cir. 2012).
It is the finding of this Court that both the balance of
equities and the public interest favor the granting of the
injunction requested by Plaintiffs.
Conclusion
The Plaintiffs of the Bond Hearing Class have suc­
ceeded in establishing all the requisite elements for a
granting of their request for injunctive relief: a likeli­
hood of success on the merits, irreparable harm if their
relief is not granted, a balance of equities in their favor,
and that the public interest will be benefited by the re­
lief they seek. Accordingly, the Court GRANTS the
requested relief and orders that Defendant EOIR insti­
tute the following procedural safeguards within 30 days
of this Order:
1.

Conduct bond hearings within seven days of a
bond hearing request by a class member, and re­
lease any class member whose detention time ex­
ceeds that limit;

2.

Place the burden of proof on Defendant Depart­
ment of Homeland Security in those bond hear­
ings to demonstrate why the class member should

98a
not be released on bond, parole, or other condi­
tions;
3.

Record the bond hearing and produce the record­
ing or verbatim transcript of the hearing upon ap­
peal; and

4.

Produce a written decision with particularized
determinations of individualized findings at the
conclusion of the bond hearing.

The clerk is ordered to provide copies of this order to
all counsel.
Dated:

Apr. 5, 2019
MARSHA J. PECHMAN
Marsha J. Pechman
United States District Judge

99a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
Case No. C18-928 MJP
Yolany Padilla, et al., plaintiffs
v.
US Immigration and Customs Enforcement,
ETAL., DEFENDANTS

Filed:

Mar. 6, 2019

ORDER GRANTING CERTIFICATION OF CLASSES
The above-entitled Court, having received and re­
viewed
1. Plaintiffs’ Amended Motion for Class Certifica­
tion (Dkt. No. 37),
2.

Defendants’ Opposition to Plaintiffs’ Amended
Motion for Class Certification (Dkt. No. 68),

3.

Plaintiffs’ Reply in Support of Amended Motion
for Class Certification (Dkt. No. 72),

all attached declarations and exhibits, and relevant por­
tions of the record, rules as follows:
IT IS ORDERED that the motion is GRANTED, and
the following classes are certified in this matter:

100a
(1) Credible Fear Interview Class: All detained
asylum seekers in the United States subject to
expedited removal proceedings under 8 U.S.C. §
1225(b) who are not provided a credible fear de­
termination within ten days of the later o/(l) re­
questing asylum or expressing a fear of persecu­
tion to a DHS official or (2) the conclusion of any
criminal proceeding related to the circum­
stances of their entry, absent a request by the
asylum seeker for a delayed credible fear inter­
view.
(2) Bond Hearing Class: All detained asylum seek­
ers who entered the United States without in­
spection, were initially subject to expedited re­
moval proceedings under 8 U.S.C. § 1225(b), were
determined to have a credible fear of persecu­
tion, but are not provided a bond hearing with a
verbatim transcript or recording of the hearing
within seven days of requesting a bond hearing.
IT IS FURTHER ORDERED that Plaintiffs Padilla,
Guzman, Orantes and Vasquez are designated as repre­
sentatives of the Credible Fear Interview Class; Plain­
tiffs Orantes and Vasquez as representatives of the
Bond Hearing Class; and Plaintiffs’ counsel as class
counsel.
Background
Plaintiffs are the named representatives of a putative
class seeking declaratory relief related to Defendants
United States Immigration and Customs Enforcement
(“ICE”), United States Department of Homeland Secu­
rity (“DHS”), United States Customs and Border Pro-

101a
tection (“CBP”) and United States Citizenship and Im­
migration Services (“USCIS”)’s policies and practices
with respect to the processing of asylum and credible
fear claims and the setting of bond for detained immi­
grants pending resolution of those claims. Their com­
plaint was originally filed on June 25, 2018 (Dkt. No. 1)
and has been amended twice to date. (Dkt. Nos. 8,26.)1
A.

The Named Plaintiffs

Yolany Padilla: Shortly after her apprehension for
illegal entry into the United States in May 2018, Ms. Pa­
dilla expressed a fear of being removed to her native
Honduras. (SAC at 11 40.) Six weeks later, she was
interviewed by an asylum officer and one day later,
found to have a credible fear. Two days later, she was
granted a bond hearing, was awarded bond, and was re­
leased in late July 2018. (Id. at H 66, 115.)
Ibis Guzman: Ms. Guzman is also from Honduras
and underwent a similar process to Ms. Padilla. She
was represented at her bond hearing but was denied
bond. (Id at HH 32, 99.) She reserved appeal, but was
released in late July 2018. (Id. at H 119.)
Bianca Orantes: Shortly after her apprehension for
illegal entry into the United States, Ms. Orantes ex­
pressed a fear of returning to her native El Salvador.
(Id. at H 44.) About five weeks later, she was inter­
viewed by an asylum officer and, one day later found to
have a credible fear. (Id at H 102.) She was granted
1 The complaint in this case was initially filed on June 25, 2018.
(Dkt. No. 1.) Since then, it has been twice amended. (Dkt. Nos. 8,
26.) The operative complaint is now the Second Amended Com­
plaint. (Dkt. No. 26 (“SAC”).) Hereinafter, all references to the
complaint refer to the SAC.

102a
a bond hearing 11 days after her credible fear determi­
nation, was denied bond, reserved appeal, but was re­
leased in late July 2018. (Id. at 1111121, 123.)
Baltazar Vasquez: Shortly after his apprehension
for illegal entry into the United States, Mr. Vasquez ex­
pressed a fear of returning to his native El Salvador.
(Id. at U 46.) About eight weeks later, he was inter­
viewed by an asylum officer and found to have a credible
fear. Three weeks later, he was granted a bond hear­
ing, stipulated to an $8,000 bond, waived appeal, and was
released. (Id. at HH 108,125.)
B.

The Class Claims

Plaintiffs seek certification of two classes: A Cred­
ible Fear Interview Class and a Bond Hearing Class
(collectively, the “Classes”), and assert the following re­
maining claims:
Count I (Violation of Due Process): Both Classes
claim they were detained for “an unreasonable time”
while awaiting their credible fear interview and bond
hearings. They seek to impose (1) a ten-day deadline
for the credible fear interview, running from the date on
which the non-citizen expresses a fear of returning to his
or her country; and (2) a seven-day deadline for the bond
hearing, running from the date of a positive credible fear
In addition, they seek procedural
determination,
changes to the bond hearing including (1) that the gov­
ernment bear the burden of proof; (2) that they be pro­
vided a recording or verbatim transcript of the hearing;
and (3) that the bond adjudicator issue written findings
after every hearing.
Count II (Administrative Procedure Act): The Bond
Hearing Class claims that the procedural deficiencies

103a
they allege in the bond hearing process are an unconsti­
tutional part of a “final agency action” in violation of the
Administrative Procedures Act, 5 U.S.C. § 706(2)
(“APA”).2

Discussion
Preliminarily, Defendants again argue that the re­
strictions in the immigration statutes at issue deprive
this Court of jurisdiction. These arguments are identi­
cal to those which the Court has previously rejected.
(See Dkt. No. 91 at 6-8; Dkt. No. 100.) The Court will
not repeat its reasoning here, but will repeat its finding
that it has jurisdiction to hear Plaintiffs’ claims.
I.

Legal Standard

Plaintiffs seek class certification under Federal Rules
of Civil Procedure 23(a) and 23(b)(2). Rule 23(a) pro­
vides that a class may be certified only if: (1) the class
is so numerous that joinder of all members is impracti­
cable; (2) there are questions of law or fact common to
the class; (3) the claims or defenses of the representative
parties are typical of the claims or defenses of the class;
and (4) the representative parties will fairly and ade­
quately protect the interests of the class. Rule 23(b)(2)
provides that a class may be maintained if “the party op­
posing the class has acted or refused to act on grounds
that apply generally to the class, so that . . . declar­
atory relief is appropriate respecting the class as a
whole.” A class may be certified under Rule 23(b)(2)
2 Count II also claims that credible fear interviews and bond hear­
ings were being “unreasonably delayed” in violation of the APA,
§ 706(1). However, those claims were dismissed by the Court under
Fed. R. Civ. P. 12(b)(6). (See Dkt. No. 91 at 11-12, 16-17.) Count
III (Violation of Asylum Statute) has been abandoned. (Id. at 18.)

104a
where the challenged conduct is “such that it can be en­
joined or declared unlawful only as to all of the class
members or as to none of them.” Wal-Mart Stores.
Inc, v. Dukes. 564 U.S. 338, 360 (2011).
II. Class Certification
A.

Numerosity

Defendants do not challenge this element, and the
Court finds that the requirement for numerosity has
been satisfied.
B.

Commonality

Plaintiffs contend that, despite the differing factual
circumstances among the class members, all have suf­
fered the same injury, and that injury is capable of class­
wide resolution. Wal-Mart. 564 U.S. at 350. Regard­
ing the timing of credible fear interviews and bond hear­
ings, the alleged injury is the failure to hold the inter­
views and hearings in a constitutionally timely manner
(i.e.. ten days and seven days, respectively, according to
the complaint). Regarding the bond hearings, the al­
leged injury is the claimed procedural deficiencies (i.e..
that the burden of proof is placed on the detainee; that
no verbatim record and no written findings are provided
unless the ruling is appealed). The uniform resolution
which is applicable to all members of the class is a de- claratory judgment that these practices are unconstitu­
tional.
Regarding the timing of interviews and hearings, De­
fendants respond that the individual circumstances of
the class members and varying reasons for delays in
their interviews and hearings render this matter incapa­
ble of a uniform procedural resolution. For example, be­
cause some of the class members have not entered at a

105a
recognized point of entry (“POE”), they are subject to
criminal prosecution, which may affect the timing of
credible fear interviews and/or bond hearings. This ar­
gument is addressed in detail in Section II.C, infra, with
respect to typicality and adequacy of the class repre­
sentatives. The Court will confine itself here to a find­
ing that the criminal prosecutions faced by some class
members will not suffice to defeat commonality.
Regarding the procedural protections available at
bond hearings, Defendants claim that the balancing test
in Mathews v. Eldridge, 424 U.S. 319, 334-35 (1976)
(which weighs the private interest affected by the gov­
ernment action, the risk of erroneous deprivation of the
private interest, and the government interest in the ac­
tion) requires an “individualized assessment,” and that
imposing a strict and uniform timetable on credible fear
interviews and bond hearings would be inconsistent with
“the flexibility inherent in due process.” Mathews con­
tains no holding to this effect, nor does it hold that a
classwide deprivation of due process cannot be ad­
dressed by a uniform solution.
Defendants further contend that due process viola­
tions in the immigration context must be subjected to a
“harmless error” analysis. See, e.g., Prieto-Romero v,
Clark. 534 F.3d 1053, 1066 (9th Cir. 2008); Singh v.
Holder, 638 F.3d 1196,1210 (9th Cir. 2011). While this
does appear to be the state of the law regarding individ­
ual litigants, neither of these cases were class action
suits analyzing the commonality of class claims. The
fact that certain members of the Classes may not have
ultimately been harmed by the allegedly unconstitu­
tional practices of the government does not mean that
these practices are constitutional. Furthermore, a

106a
finding that any or all of these practices are unconstitu­
tional means, ipso facto, that they have the potential to
harm anyone who is subjected to them. The purpose of
classwide declaratory relief is to avert any such likeli­
hood and it is self-defeating to wait until after the fact of
the bond hearing to decide whether the practice is un­
constitutional and harmful to a particular class member.
As Plaintiffs point out, “courts regularly resolve pro­
cedural due process claims on a class-wide basis when
addressing the constitutionality of immigration agen­
cies’ policies and practices.” See, e.g.. Hernandez v.
Sessions. 872 F.2d 976, 993-94 (9th Cir. 2017); Walters
v. Reno. 145 F.3d 1032, 1047 (9th Cir. 1998); Rojas v.
Johnson. 305 F. Supp. 3d 1176, 1194-1200 (W.D. Wash.
2018).
The Court finds that the requirement for commonal­
ity has been satisfied.
C.

Typicality and Adequacy3

Defendants attack the named Plaintiffs’ typicality
and adequacy on multiple fronts, and the Court will ad­
dress each in turn:
1. The Named Plaintiffs’ Injury
Defendants contend that the named plaintiffs have
received their credible fear determinations and bond
hearings and have all been released from custody such
that they are no longer facing any injury. The Court

3 While typicality and adequacy are separate inquiries, they are in
some ways overlapping and the briefing tends to conflate the two
factors. Accordingly, the Court will address them together.

107a
finds that these events do not defeat adequacy or typi­
cality.
First, there is precedent for certifying a class where
some of the proposed class members have received some
of the sought-after protections but others have not.
See Walters. 145 F.3d at 1037; Rojas v. Johnson. C161024RSM, 2017 WL 1397749, at *5-6 (W.D. Wash. Jan.
10, 2017).
Second, the resolution of the named Plaintiffs’ inju­
ries occurred after the filing of the litigation, and courts
are traditionally reluctant to permit government agen­
cies “to avoid nationwide litigation that challenges the
constitutionality of its general practices simply by point­
ing to minor variations in procedure . . . designed to
avoid the precise constitutional inadequacies” which are
at issue. Walters, 145 F.3d at 1046.
Third, Plaintiffs’ ultimate release is not a factor in a
case where the nature of the class’s common circumstance
—immigration detention—renders their claims “inher­
ently transitory”:
[Wjhere a plaintiff’s claim becomes moot while she
seeks to certify a class, her action will not be ren­
dered moot if her claims are “inherently transitory”
(such that the trial court could not have ruled on the
motion for class certification before her claim ex­
pired), as similarly-situated class members would
have the same complaint. The theory behind this
rule is that such claims are “capable of repetition, yet
evading review.”
Rivera v. Holder. 307 F.R.D. 539, 548 (W.D. Wash. 2015)
(citing Pitts v. Terrible Herbst, Inc.. 653 F.3d 1081,
1090-91 (9th Cir. 2011) (describing how this “relation

108a
back” doctrine applies in class actions)). Claims which
would otherwise “evade review” are permitted to “relate
back” to the filing of the complaint for purposes of the
certification analysis. Sosna v. Iowa. 419 U.S., 393, 402
n.ll (1975).
Finally, Plaintiffs’ claims are aimed at Defendants’
policies and practices. If those policies and practices
are ultimately determined to be unconstitutional or oth­
erwise violative of federal law, the fact that not all class
members will have been injured by those practices (due
to the “inherently transitory” nature of their claims)
should not affect their ability to have those practices de­
clared unconstitutional as to all who find themselves in
similar circumstances.
2. The Timing and Effect of Criminal Proceed­
ings
Defendants argue that the named Plaintiffs are atyp­
ical, having been subject to—in addition to the normal
immigration procedures—criminal prosecution (based
upon their entry into the country at some place other
than a POE). Tellingly, Defendants fail to provide any
explanation as to how a criminal prosecution might im­
pact the timing of the credible fear interview and bond
hearing or change the due process analysis. In the case
of at least Ms. Orantes, her credible fear interview oc­
curred weeks after her criminal proceedings were con­
cluded. Nor do the immigration regulations regarding
the right to a credible fear interview and bond hearing
contain any provision about criminal prosecution im­
pacting the timing of those procedures. See 8 C.F.R.
§ 208.31(b). The allegedly unconstitutional delays of
which the named Plaintiffs complain remain the same
for them as the other class members.

109a
In response, Plaintiffs explain:
[J]ust as Plaintiffs do not seek to impose deadlines
where delays are at the request of the applicant, they
do not seek to require CFIs prior to a district court’s
disposition of a pending criminal charge.
(Dkt. No. 72 at 9.) Based upon this representation, the
Court will revise the Credible Fear Interview Class’s
proposed class definition, such that the requested tenday deadline will be run from the disposition of any
pending criminal proceedings. In other words, the
Credible Fear Interview Class will include “all detained
asylum seekers . . . who are not provided a credible
fear determination within ten days of the later of (1) re­
questing asylum or expressing a fear of persecution to a
DHS official or (2) the conclusion of any criminal pro­
ceeding related to the circumstances of their entry, ab­
sent a request by the asylum seeker for a delayed cred­
ible fear interview.”
3. The Geographical Location, Circumstances of
Entry, and Challenges to Bond Determina­
tions
Defendants’ arguments that the named Plaintiffs are
located in different geographical regions, entered the
country under different circumstances, and faced differ­
ent outcomes at their bond hearings, fare no better.
First, Defendants follow the same “indefinite deten­
tion” policy across the country, regardless of their loca­
tion or the circumstances of their entry. Further, these
factors do not seem to affect the uniformity of treatment
received by the putative class members: Plaintiffs have
submitted affidavits from immigration attorneys across

110a
the country describing similar delays and procedural de­
ficiencies in credible fear interviews and bond hearings.
(Dkt. Nos. 39-44.)
Second, Defendants contend that Ms. Orantes and
Mr. Vasquez are neither typical nor adequate to repre­
sent the bond hearing class because neither appealed
their bond determination. The Court fails to see how
this renders them atypical or inadequate, as they were
still subject to the same allegedly improper circum­
stances (i.e., delayed bond hearings, alleged procedural
deficiencies) as the class they seek to represent. Addi­
tionally, where a defendant’s policies are immutable, a
futile effort at administrative exhaustion is not required.
American-Arab Anti-Discrimination Comm, v. Reno. 70
F.3d 1045, 1058 (9th Cir. 1995). In any event, accord­
ing to the complaint, Ms. Orantes and Mr. Vazquez did
intend to appeal their bond denials and only abandoned
these efforts when they were released.
4. The Named Plaintiffs’ Participation in Litiga­
tion
Lastly, Defendants argue that there is a lack of evi­
dence of the named Plaintiffs’ “interest, willingness, and
understanding of the need to participate” in their litiga­
tion, based upon the absence of declarations affirming
so much. As far as the Court is aware, there is no re­
quirement that a named plaintiff submit a declaration
specifically affirming their interest, willingness, and un­
derstanding of the need to participate. Further, Ms.
Orantes submitted a declaration in connection with the
pending request for a preliminary injunction. (See
Dkt. No. 57.) The physiological, psychological, and
emotional hardships she relates in those declarations

111a
leave little doubt as to her interest in the case and will­
ingness to pursue it. Defendants’ request for addi­
tional time to depose the named Plaintiffs on these top­
ics is rejected as both unnecessary and unduly timeconsuming.
The Court finds that the requirements for typicality
and adequacy have been satisfied.
D.

Classwide Relief is Appropriate

For the reasons discussed in Section II.B, supra, con­
cerning the commonality requirement, the Court finds
that Defendants’ conduct is applicable to all class mem­
bers, such that declaratory relief, if granted, will be ap­
propriate for everyone in both the Credible Fear Inter­
view and the Bond Hearing Classes.
E.

Nationwide Certification is Appropriate

Defendants ask that, should the Court certify the re­
quested classes, it not do so on a nationwide basis.
Their grounds for this request are (1) “intercircuit com­
ity,” (2) the foreclosure of similar litigation in other dis­
tricts with the accompanying opportunity to address
“unique local issues”, and (3) the risk that nationwide
certification would foreclose class members—who will
not be able to opt out—from seeking “speedier individ­
ual relief.”
The Court is not persuaded. As Plaintiffs point out,
the proposed class representatives were transferred all
over the country before landing in the Western District
of Washington. That Defendants routinely transfer de­
tained immigrants throughout the country prior to ad­
judicating their cases is a fact capable of judicial notice,
and the Court fails to see the logic of confining the out­
come of this matter to a single district.

112a
Further, the Court’s analysis of the “commonality”
and “typicality” factors addresses the validity of “unique
local issues”—Plaintiffs are seeking a uniform nation­
wide resolution because there is no provision in the ap­
plicable regulations (or the Constitution) that permits
Defendants to deny due process based upon “local is­
sues,” however “unique” they may be. In any event,
Defendants cite no other similar litigation elsewhere in
the country, and the Court is aware of none.
Finally, the Court finds Defendants’ concern that
class members be afforded the opportunity to seek
“speedier individual recovery” to border on the cynical.
It is again a fact eligible for judicial notice that the over­
whelming majority of these class members are not suf­
ficiently resourced to pursue litigation on their own.
The Supreme Court has recognized that nationwide
certification is committed to the discretion of the district
court and is appropriate in some circumstances. Califano v. Yamasaki. 442 U.S. 682, 702-03 (1979). The
Court finds that this is manifestly one of those circum­
stances, and rejects Defendants’ request to limit the
scope of the class certification.
Conclusion
Plaintiffs have established numerosity, commonality,
typicality and adequacy, and have further demonstrated
that “declaratory relief is available to the class as a
whole” and that the challenged conduct is “such that it
can be enjoined or declared unlawful only as to all of the
class members or as to none of them.” Wal-Mart. 564
U.S. at 360. The Court therefore certifies a Credible
Fear Interview Class and a Bond Hearing Class as de-

113a
fined supra; designates named Plaintiffs Padilla, Guz-.
man, Orantes and Vasquez as Credible Fear Interview
Class representatives and Plaintiffs Orantes and
Vasquez as Bond Hearing Class representatives; and
appoints Plaintiffs’ counsel as class counsel.
The clerk is ordered to provide copies of this order to
all counsel.
Dated:

Mar. 6, 2019
MARSHA J. PECHMAN
Marsha J. Pechman
United States Senior District Judge

114a
APPENDIX F
1.

8 U.S.C. 1225(b)(l)(A)-(B) provides:

Inspection by immigration officers; expedited removal of
inadmissible arriving aliens; referral for hearing
(b)

Inspection of applicants for admission
(1) Inspection of aliens arriving in the United States
and certain other aliens who have not been admit­
ted or paroled
(A)

Screening
(i)

In general

If an immigration officer determines that an
alien (other than an alien described in subpar­
agraph (F)) who is arriving in the United States
or is described in clause (iii) is inadmissible un­
der section 1182(a)(6)(C) or 1182(a)(7) of this ti­
tle, the officer shall order the alien removed
from the United States without further hearing
or review unless the alien indicates either an
intention to apply for asylum under section
1158 of this title or a fear of persecution.
(ii)

Claims for asylum

If an immigration officer determines that an
alien (other than an alien described in subpar­
agraph (F)) who is arriving in the United States
or is described in clause (iii) is inadmissible un­
der section 1182(a)(6)(C) or 1182(a)(7) of this ti­
tle and the alien indicates either an intention to
apply for asylum under section 1158 of this title
or a fear of persecution, the officer shall refer

115a
the alien for an interview by an asylum officer
under subparagraph (B).
(iii) Application to certain other aliens
(I)

In general

The Attorney General may apply clauses
(i) and (ii) of this subparagraph to any or all
aliens described in subclause (II) as desig­
nated by the Attorney General. Such des­
ignation shall be in the sole and unreviewable discretion of the Attorney General and
may be modified at any time.
(II)

Aliens described

An alien described in this clause is an al­
ien who is not described in subparagraph
(F), who has not been admitted or paroled
into the United States, and who has not af­
firmatively shown, to the satisfaction of an
immigration officer, that the alien has been
physically present in the United States con­
tinuously for the 2-year period immediately
prior to the date of the determination of in­
admissibility under this subparagraph.
(B)
(i)

Asylum interviews
Conduct by asylum officers

An asylum officer shall conduct interviews
of aliens referred under subparagraph (A)(ii),
either at a port of entry or at such other place
designated by the Attorney General.

116a
(ii)

Referral of certain aliens

If the officer determines at the time of the
interview that an alien has a credible fear of
persecution (within the meaning of clause (v)),
the alien shall be detained for further consider­
ation of the application for asylum.
(iii) Removal without further review if no cred­
ible fear of persecution
(I)

In general

Subject to subclause (III), if the officer
determines that an alien does not have a
credible fear of persecution, the officer shall
order the alien removed from the United
States without further hearing or review.
(II)

Record of determination

The officer shall prepare a written record
of a determination under subclause (I). Such
record shall include a summary of the mate­
rial facts as stated by the applicant, such ad­
ditional facts (if any) relied upon by the of­
ficer, and the officer’s analysis of why, in the
light of such facts, the alien has not estab­
lished a credible fear of persecution. A
copy of the officer’s interview notes shall be
attached to the written summary.
(III) Review of determination
The Attorney General shall provide by
regulation and upon the alien’s request for
prompt review by an immigration judge of a
determination under subclause (I) that the

117a
alien does not have a credible fear of perse­
cution. Such review shall include an Oppor­
tunity for the alien to be heard and ques­
tioned by the immigration judge, either in
person or by telephonic or video connection.
Review shall be concluded as expeditiously
as possible, to the maximum extent practi­
cable within 24 hours, but in no case later
than 7 days after the date of the determina­
tion under subclause (I).
(IV) Mandatory detention
Any alien subject to the procedures un­
der this clause shall be detained pending a
final determination of credible fear of perse­
cution and, if found not to have such a fear,
until removed.
(iv) Information about interviews
The Attorney General shall provide infor­
mation concerning the asylum interview de­
scribed in this subparagraph to aliens who may
be eligible. An alien who is eligible for such
interview may consult with a person or persons
of the alien’s choosing prior to the interview or
any review thereof, according to regulations
prescribed by the Attorney General. Such
consultation shall be at no expense to the Gov­
ernment and shall not unreasonably delay the
process.
(v)

“Credible fear of persecution” defined

For purposes of this subparagraph, the
term “credible fear of persecution” means that

118a
there is a significant possibility, taking into ac­
count the credibility of the statements made by
the alien in support of the alien’s claim and such
other facts as are known to the officer, that the
alien could establish eligibility for asylum un­
der section 1158 of this title.
2.

8 U.S.C. 1252(f)(1) provides:

Judicial review of orders of removal
(f)

Limit on injunctive relief
(1) In general
Regardless of the nature of the action or claim or
of the identity of the party or parties bringing the ac­
tion, no court (other than the Supreme Court) shall
have jurisdiction or authority to enjoin or restrain
the operation of the provisions of part IV of this sub­
chapter, as amended by the Illegal Immigration Re­
form and Immigrant Responsibility Act of 1996, other
than with respect to the application of such provi­
sions to an individual alien against whom proceedings
under such part have been initiated.

